Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     PRESCRIPTION DRUG USE 

       IN NURSING HOMES 




                Report 3

         A Pharmaceutical Review
                   and
       Inspection Recommendations




                     JUNE GIBBS BROWN
                     Inspector General

                       NOVEMBER 1997
                        OEI-06-96-00082
                    EXECUTIVE                     SUMMARY

PURPOSE

To assess the extent and appropriateness of pharmaceutical use by selected Texas nursing
home residents and to describe pharmacists’ concerns about drug use.

BACKGROUND

The primary goal of drug therapy for nursing home patients is to maintain and improve, to 

the extent possible, the patient’s functional capacity and quality of life. The Omnibus 

Budget Reconciliation Acts (OBRA) of 1987 and 1990, in recognition of this, require the 

regulation of certain drugs in nursing homes and the establishment of drug utilization 

review programs for nursing home residents. Provisions of the OBRA 1990, while not 

required for all nursing homes, also clearly establish Congress’ desire to involve 

pharmacists more actively in patient care. Broad oversight of the drug therapy 

requirements for the nursing homes is performed by consultant pharmacists hired to 

perform a monthly medication review for each resident. Yet, several recent studies 

suggest that the use of inappropriate or contraindicated drugs is a contributing factor to the 

high health care costs in the elderly population. It is important to understand that reports 

of possible “inappropriate” use of medications are somewhat a matter of opinion. 

Ultimately, for nursing home patients, it is either the patient’s attending physician or the 

facility’s medical director who determine what is appropriate care. This includes 

prescribing medications to meet patients’ needs. 


We undertook this inspection, using three different approaches, to provide insight into 

several issues related to prescription drug use in nursing homes. These issues are 

addressed in three reports, of which this is the third. The first report describes 

prescription drug use in Texas nursing facilities; the second report discusses medication 

use concerns expressed by a nationally representative sample of consultant pharmacists. 

This third report provides the results of a pharmaceutical review (conducted by 

independent pharmacists with whom we contracted for this purpose) of 254 sampled Texas 

nursing home patients. Additionally, this final report presents recommendations 

addressing the issues and concerns raised collectively by all three reports issued as part of 

this coordinated inspection. 


FINDINGS

Overall, contracted pharmacists’ reviews consistently identified the same problems and
concerns for patients as were raised by our analysis of Texas data and the national survey
of consultant pharmacists. This finding underscores the need for strengthening medication
reviews and improving medication prescribing, administration, and monitoring practices in
nursing homes.
Oualitv of Care Issues

Contracted medication reviews revealed potentially serious concerns with residents’
drug regimens.

20 percent of the reviewed patient records identified patients receiving at least one drug
judged inappropriate for their diagnoses. Additionally, patients’ records indicated some
residents were taking medications potentially contraindicated by their diet requirements,
plans of care, or assessments.

16 percent of patients were receiving, without a prescription in their records, drugs for
which prescriptions are generally required. Further, 23 percent of the patients were
prescribed medications for which the records showed no orders or receipts to indicate the
patient actually received the medication.

Approximately 20 percent of residents received at least one drug considered by experts to
be inappropriate for use by the elderly.

Some patients’ records indicate they may be experiencing unnecessary adverse medication
reactions as a result of inadequate monitoring.

21 percent of patients were receiving drugs which may sometimes negatively interact with
other drugs in their regimen.

Nearly one-third of patients were receiving more than one drug from the same class,
sometimes a potential hazard. Drugs from the same class may produce similar side effects
which can be additive and need to be carefully managed. Yet, 19 percent of all records
indicate no monitoring for efficacy.

ShortcominPs of Medication Reviews

Resident medication records are often incomplete, making it difficult or impossible to
identify or confirm potential drug regimen problems.

31 percent of patients’ records were not sufficientlq complete to allow contract
pharmacists to make determinations concerning the appropriateness of medications
prescribed for patients’ diagnoses.

Contract pharmacists identified several patients whose prescribed medications may have
contributed to falls, depression, and constipation. However, due to insufficient records,
they were unable to pinpoint or eliminate the patient’s drug regimen as the cause.

Often the contract pharmacists were unable to determine whether a patient had received a
monthly drug regimen review during the sampled time period.




                                              ii
Thorough contracted medication reviews required much more time than the usual
review times reported by nursing home consultant pharmacists. Allotting more time
for conducting reviews appears to help in detecting more medication concerns.

Contract pharmacists’ reviews averaged 50 minutes, which is considerably longer than the
times consultant pharmacists expend doing medication reviews (averaged 5-10 minutes per
monthly review with initial reviews taking 15-20 minutes).

The contract pharmacists identified medication problems or concerns for 20 percent of the
patients which had not been identified by the nursing home consultant pharmacists’
reviews.

RECOMMENDATIONS 


Medication problems and concerns raised collectively by the three coordinated reports 

of this inspection demonstrate the need for stronger monitoring and more positive 

enforcement of existing regulations and required reviews of medication usage in 

nursing homes. Therefore, we recommend that the Health Care Financing 

Administration: 


   Continue to monitor and encourage reductions in the use of potentially inappropriate
   prescription drugs in the elderly nursing home population;

   Work with other Federal and State agencies to identify and analyze reasons for the
   rapid escalation in costs and claims for certain types of drugs used in nursing homes
   (i.e., gastrointestinal, psychotherapeutic, cardiac, cardiovascular, and anti-infectives);

   Strengthen the effectiveness and impact of medication reviews conducted by consultant
   pharmacists in nursing homes;

   Require nursing homes to ensure that the curriculum for required on-going, in-service
   training for personal care staff (nurse aides) includes information on how to recognize
   and report signs of possible contraindications, adverse reactions, or inappropriate
   responses to medications;

   Strengthen and enforce coordination and communication among the involved healthcare
   team members in nursing homes; and

   More vigorously pursue enforcement of resident health outcomes.

COMMENTS ON THE DRAFT REPORT

We solicited comments from agencies within the Department of Health and Human
Services which have responsibilities for policies related to Medicare and Medicaid and
long term care. We also requested input from several national organizations representing



                                               ...
                                               111
the interests of nursing homes, patients, or providers.   We appreciate the time and efforts
of those providing comments.

Departmental Comments

Within the Department, we received comments on the draft reports from the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE). Both agencies concurred with the recommendations; HCFA emphasized the need
for further studies to assess the extent of continued use of potentially inappropriate drugs,
other avenues of possible cost savings related to drugs, and the need to determine and
understand the potential sources of the escalating costs and claims for certain types of
drugs used in nursing homes. The final reports reflect several clarifications or changes
based on their suggestions. The full text of each agency’s comments is provided in
Appendix D.

Comments from External Organizations

We also received comments from the following external organizations: American Health
Care Association; American Association of Homes and Services for the Aging; American
Medical Directors Association; American Society of Consultant Pharmacists; and National
Association of Boards of Pharmacy. Most of the associations concurred with one or more
of the recommendations within each of the inspection reports. All commentors support
the need for better communication and coordination between nursing home staff and other
healthcare providers, training nurse aides, and understanding the implications of nursing
home medication services and associated costs.

Several organizations questioned the methodology used in this inspection, particularly for
the consultant pharmacist survey. However, as with any evaluation, there are always
some limitations in how data and information can be obtained, given time and other
resource constraints. Further, while we acknowledge that a survey of this nature
introduces some bias and subjectivity, we also believe that the survey of consultant
pharmacists provides us with an up-close view of what is happening with prescription drug
use in nursing homes. Moreover, the results of the consultant pharmacist survey are
consistent with our results from our two other methodologies.

Some comments expressed concerns about the use of the term, “inappropriate.” As
explained previously, use of this term in reporting concerns with a patient’s medication
regimen are somewhat a matter of opinion. The evidence provided in these three reports
does not prove that any one prescription was improper, but that closer examination is
warranted. Also, while the use of such a drug may be supported by physician orders in
individual cases, use of the drug, in general, is likely to be considered inappropriate.

Some comments addressed the implications of broadening Federal oversight. There is
clear concern about the responsibility for medication issues being the responsibility of the
physician, not the nursing home. Further, some organizations expressed concern that
these particular issues did not result in direct recommendations about the physician’s role


                                              iv
for nursing home patients’ medication regimens. We felt that further examination of this
area is warranted before recommending changes which would impact so many entities
involved in the process.

In conclusion, we believe the three reports collectively, and each using a different
approach, strongly indicate that the intent of the provisions of the OBRA Acts concerning
prescription drug usage are not being clearly fulfilled. Further, HCFA has authority to
correct and enhance quality of care for nursing home patients. The recommendations we
present attempt to facilitate the initial steps of this effort, and to address some concerns
evidenced in the reports and received comments. While we recognize that great strides
have been made to meet the OBRA requirements, we believe further effort remains by all
the players involved (HCFA, associations and their members, nursing homes, and
residents and their families) to further improve quality of care for nursing home patients.

The full text of each organization’s comments is provided in Appendix E.




                                              V
                    TABLE            OF CONTENTS 



EXECUTIVE SUMMARY


INTRODUCTION 
                                                            1

METHODOLOGY 
                                                             7

FINDINGS 
                                                                9

  Quality of Care Issues 
                                                9

  Shortcomings of Medication Reviews 
                                   11


RECOMMENDATIONS 
                                                        14

COMMENTS ABOUT DRAFT REPORTS 
                                           16

ENDNOTES 
                                                               18

APPENDICES 


  Inappropriate Medications for Elderly Persons 
                       A-l

  Nursing Home Patient Records Requested 
                              B-l

  Pharmaceutical Desk Review Form 
                                     C-l

  Departmental Comments About Inspection Draft Reports
                 D-l
                                            4

  Comments by External Organizations About Inspection Draft Reports 
   E-l
                            INTRODUCTION

PURPOSE

To assess the extent and appropriateness of pharmaceutical use by selected Texas nursing
home residents and to describe pharmacists’ concerns about drug use.

BACKGROUND

Long-Term Care and Prescription Medications

Medicaid is the primary public program for long-term care assistance for the elderly and
disabled. Long-term care is one of the largest and fastest growing needs of the elderly.
Of the $39.8 billion in program expenditures for care of this population in fiscal year
1995, 73 percent ($29.1 billion) went for nursing home stays. ’

Payments for prescription drugs represent a large portion of Medicaid’s expenditures for
nursing facilities. Medicaid provided services for 1.7 million nursing home residents in
fiscal year 1995 at an average cost per bed from $600 to $1000 per year.2 This suggests
that Medicaid paid between $1 billion and $1.7 billion to provide prescription drugs to
residents of long-term care facilities. This could be as much as 16 percent of total
Medicaid prescription drug expenditures.

Potential Health and Cost Problems

Several recent studies suggest that inappropriate use of prescription drugs by the elderly
creates the potential for serious health problems and the increased risk for wasted
hundreds of millions of Federal dollars annually in medication and hospitalization costs.
One study estimated that the percentage of hospitalizations of elderly patients due to
adverse medication reactions to be 17 percent, almost 6 times greater than for the general
population. 3 Further, an expert panel of pharmacists estimates that the injuries resulting
from failed drug therapy result in approximately 100,000 hospitalizations and a cost of
$77 billion each year.4

According to the Food and Drug Administration (FDA), the elderly, about 13 percent of
the U. S. Population, account for over one-third of the “adverse drug experiences”
reported by pharmacists, physicians, and other health professionals. These figures
translate to 30,000 hospitalizations and $25 billion in costs among the elderly.’ Much of
this cost is paid by the elderly population, but a large portion of it is borne by Federal
health care programs including Medicare and Medicaid. Clearly, Federal programs as
well as our senior citizens are paying the high cost of failed drug therapy.6 Not only do
the elderly use prescription drugs more than any other age population, they also tend to be
taking several drugs at once, increasing the probability of adverse drug reactions.‘,* The
elderly may also eliminate these medications from their system less efficiently than those
younger due to decreased bodily functions.


                                              1
Studies also suggest more subtle effects of inappropriate medication usage among the
elderly, such as loss of cognitive or physical function and the potential for increased falls.
Researchers have concluded that a number of prescription drugs used by the general
population should not be prescribed for elderly patients (see Appendix A). Yet, the
General Accounting Office reported that the Health Care Financing Administration’s
(HCFA) Office of the Actuary in 1992 found 17.5 percent of the 30 million senior citizens
receiving Medicare benefits had received at least one medication inappropriate for use by
the elderly. Today, many equally effective drugs are available which present fewer risks
for elderly patients.’

Regulation and Control of Prescription Drug Use in Nursing Facilities

Omnibus Budget Reconciliation Act of 1987

As part of the Omnibus Budget Reconciliation Act of 1987 (OBRA 1987), Congress
required the regulation of certain drugs in nursing facilities. On October 1, 1990, HCFA
implemented regulations which hold nursing facilities accountable for monitoring
medication usage. lo Significant requirements for pharmaceutical care of nursing home
residents include provisions regarding Pharmacy Services (drug regimen review), Quality
of Care (drug therapy), Resident Rights (self-administration of drugs), Resident
Assessment, and Infection Control. Additionally, physicians must justify the use of
antipsychotic drugs based on specific diagnoses and observe specific parameters within
which these drugs may be used.


         ~
         II           Nursing Home Patients,     Medications,   and OBRA 1987
         /I
              Each nursing home patient must receive necessary nursing, medical, and
         /    psychosocial services allowing him/her to attain and maintain the highest
              possible functional status. This status is defined by a comprehensive
         I
              assessment and plan of care which each patient receives upon admission to
         I     the home and as “substantive” changes occur in the patient’s health status.
         /I    To ensure each patient receives the necessary quality care, the law and
               subsequent regulations also recognize the valueof medication therapy by
               defining certain limitations:

               1) patients must not receive unnecessary medications;
               2) 	 patients cannot be prescribed antipsychotic drugs unless they are
                    appropriate for a specific patient condition;
               3) 	 patients prescribed antipsychotic drugs will receive gradual dose
                    reductions, or behavioral programming in an effort to discontinue the
                    drugs (unless clinically contraindicated); and
               4) 	 the home must have no significant medication error rates and patients
                    must also have no significant medication errors.



To ensure these requirements are met, the States and HCFA are responsible for
performing routine facility surveys. To guide the medication-related part of these
reviews, HCFA developed “Indicators for Surveyor Assessment of the Performance of
Drug Regimen Reviews, ” standards to assist in assessing the quality of drug regimen


                                                   2
reviews and for enforcing performance, and “Surveyor Methodology for Detecting
Medication Errors,” provides the surveyor with a mechanism to evaluate the outcome of
the entire medication distribution system and to ensure the facility error rate is less than
five percent and that residents are free of risk from significant medication errors. Several
States have proven the five percent error rate to be a target figure now more easily
obtained and, additionally, HCFA is considering lowering this target rate for hospitals to
two percent. The HCFA also released revised interpretive guidelines relating to
medication usage in nursing facilities which provide tools for identifying medication
errors, and even include a list of specific drug therapy circumstances which may constitute
potential drug irregularities. None of these standards is routinely shared by HCFA with
consultant pharmacists who conduct the nursing home pharmaceutical reviews.

As a final step in the implementation of OBRA 1987, in July 1995 HCFA released new
survey and enforcement procedures. Changes include the use of new quality of life guides
for the patient, group, and family interviews; a protocol for non-interviewable residents;
closer cooperation between the State survey agency and the ombudsmen programs; and
better information for providers, including information to help them compare their patients
to residents of other nursing facilities across the region, State, or nation. Again, none of
these potentially useful changes were disseminated to consultant pharmacists.

Omnibus Budget Reconciliation Act of 1990

The provisions of Section 4401 of the Omnibus Budget Reconciliation Act of 1990 (OBRA
1990) clearly demonstrate Congress’ desire to involve pharmacists more actively in patient
care by refocusing pharmacists from a product oriented role to one involving clinical
practice responsibilities for reducing potential drug therapy problems. While not required
for nursing homes in compliance with drug regimen review requirements (specified in 42
CFR 483.60), practicing pharmacists are expected to:

   1) 	prospectively review the patient’s present drug therapy and medical condition with
        proposed drug therapy;
   2) 	 appropriately intervene with the prescriber on the patient’s behalf when inappropriate
        drug therapy has been prescribed; and
   3) 	 as an outcome of their review, counsel patients on the proper use and storage of
        medication and how to alleviate or prevent potential therapeutic problems related to
        medication usage.

Under OBRA 1990, the State Medicaid plan must provide for a review of potential drug
therapy problems due to therapeutic duplication; drug-disease contraindications; drug-drug
interactions (including serious interactions with nonprescription or over-the-counter drugs);
incorrect drug dosage or duration of drug treatment; drug-allergy interactions; and clinical
misuse. Thus, OBRA 1990, in essence, requires a certain standard of practice for
Medicaid patients. While this regulation and the statute at section 1927(g)(l)(D) of the
Social Security Act preclude any Federal action to expand this law to apply directly to
nursing home patients, most States have extended coverage to all patients, including those
of health facilities. l1 One major camp onent of this law, patient counseling, has increased


                                               3
both the role and the responsibility of the pharmacist in patient healthcare understanding,
planning, and outcomes, which, arguably, should be extended to all health care
environments.

Role of Consultant Pharmacists

Pharmacists, through their education and training, should be able to identify any serious
concerns related to medication prescribing and administration practices which, when
corrected, yield a positive impact on the quality of life for nursing home patients. To
ensure compliance with the OBRA regulations, nursing facilities are expected to employ
consultant pharmacists. These consultant pharmacists are supposed to conduct monthly
reviews of the drug regimen of each facility resident to determine whether the prescription
drugs ordered for that individual are appropriate based on the OBRA guidelines.
Consultant pharmacists are also required to:

   1) determine that drug records for each resident are in order;
   2) establish a system to record receipt and disposition of prescription drugs;
   3) offer advice and instruction in all other areas of pharmacy services; and
   4) 	 report any irregularities they discover in a resident’s drug regimen to the attending
        physician and director of nursing.

Some of the potential benefits of the consultant pharmacist role in nursing homes are the
reduction of excessive medication usage, improvement in patient quality of care, and
decreased cost for medication usage. Pharmacists may also help medical and nursing
personnel significantly improve medication therapy for patients in nursing homes which,
in turn, can help reduce total health care costs,12 particularly for those changes resulting
from fewer medications being taken, more appropriate medications being prescribed, and
fewer costly adverse reactions being experienced. Yet, there are no standards for either
drug regimen reviews or drug utilization reviews provided by HCFA to consultant
pharmacists. There are only minimal conduct requirements for medication reviews and no
standardized process, common definitions, administration, or quality assurance process for
this requirement. Thus, there is no acceptable means for comparing reviews, findings, or
patient outcomes between nursing homes or consultant pharmacists, let alone between
States.

Patient Assessment and Plan of Care

As part of the nursing home’s assessment process for each patient entering the facility, the
required Resident Assessment Instrument provides a standardized process for reviewing
each patient’s functional capacity. This, in turn, leads to the individual Plan of Care
specific to that patient’s identified needs. These two documents could be of considerable
help to consultant pharmacists in monitoring patient medication for desired care outcomes.
However, many consultant pharmacists reported in the prior phase of this inspection that
resident assessments and care plans are not routinely used as part of their medication
reviews. l3



                                              4
The Resident Assessment Instrument includes tools which could facilitate a pharmacist’s
medication review for a nursing home patient. One collects a minimum amount of
information needed to evaluate each patient (the Minimum Data Set); the other identifies
any conditions that may require further assessment (“triggers” from the Resident
Assessment Protocols). As part of the assessment, section 0 reviews patient medications.
The HCFA developed a drug class reference list of specific drugs to ensure that
categorization and identification of patient drugs is standardized for surveyors and other
personnel using the Resident Assessment Instrument (to ensure everyone is defining a drug
in the same class). Again, these tools are not routinely shared with consultant pharmacists
nor are they required for use in conducting patient medication reviews.

The Minimum Data Set Drug Class Index groups specific drugs a patient may be taking
into the four OBRA categories (antianxiety drugs, antidepressants, antipsychotics, and
hypnotics) and adds diuretics. The HCFA list also identifies which specific drugs in the
five categories are inappropriate for the elderly. It should be noted that the Beers list
(Appendix A) includes the same drugs as the HCFA list. However, the Beers list is more
extensive and includes drugs of other types which are also inappropriate for the elderly
(i.e., certain pain medications, medications for blood circulation or blood pressure, etc.).
Yet, neither the HCFA list nor the Beers list are required or suggested for use by
consultant pharmacists as part of their medication review process.

Physicians Determine What Is Appropriate For Each Patient

Reports of possible “inappropriate” use of medications are somewhat a matter of medical
opinion. Ultimately, for nursing home patients, it is either the patient’s attending
physician or the facility’s medical director who determine what is appropriate care. This
includes prescribing medications to meet patients’ needs. Once an individual is admitted
to a nursing home, the attending physician routinely participates in the ongoing care of
that patient, along with the other nursing home staff. The American Medical Association
defines several functional responsibilities for physicians with patients in long term care
facilities, including examining the patient upon admission; initiating, developing, and
overseeing the implementation of a comprehensive plan of care; maintaining medical
records; and participating in quality assurance reviews when possible.14 The physicians
are the primary persons to whom nursing staff look for identification and delineation of
care for specific medical conditions, including prescribing of any necessary medications.

Generally, the nursing home’s medical director is expected to participate in a foundation
of activities relating to the care of nursing home patients. These include participating in
the formulation and review of care policies, infection guidelines, and pharmucy protocols;
provision of in-service education for staff; and attendance at a variety of facility
committee meetings (e.g., quality assurance). This role includes coordinating visits to
patients by other health care professionals, including attending physicians. Further, the
medical director is expected to intervene if an attending physician is negligent in visiting
patients or providing quality care.




                                              5
OBRA 1987 requires that the pharmacist report any identified irregularities to the
attending physician of the patient and the director of nursing and that these reports be
“acted upon.” Yet, the regulations do not specify several important aspects of reporting
any pharmacist’s concerns:

    1. 	 how (i.e., in what format or in which patient records, such notification will be
         provided);
    2. 	 whether the medical and nursing personnel are required to provide an explanation for
         acceptance or rejection of the pharmacist’s concerns;
    3. 	 guidance to medical, nursing, or pharmaceutical staff as to what constitutes “acting on”
         reported concerns or irregularities; and
    4. 	 no specified format or record location for acceptance or rejection of pharmacists’
         concerns by medical or nursing personnel.

It should be noted that regardless of any reported concerns by the consultant pharmacist, it
is the physician’s legal responsibility to order medication changes, not that of the director
of nursing. We do not minimize the difficulties physicians encounter in meeting the
medication needs of the most typical nursing home patient - the disabled or infirm elderly
person. Much available literature details the complexities of diagnosing and the unique
challenges of prescribing medications for the elderly.

Challenges of Prescribing Medications for the Elderly15

 Some disorders, which occur in the general elderly population with characteristic
 symptoms and signs, present unusual features or, conversely, present without usual
features. Problems usually restricted to the elderly include stroke, decubitus ulcers,
metabolic bone disease, degenerative osteoarthritis, hip fracture, dementia syndrome,
falling, Parkinsonism, and urinary incontinence. Further, the usual signs may be replaced
with less specific ones, such as refusal to eat or drink, falling, incontinence, acute
confusion, increasing dementia, weight loss, and failure to thrive. Multiple disorders in
the elderly complicate and interfere with diagnosis and treatment of the presenting illness.
Depression is probably the most common psychiatric disorder of persons over the age of
65. Other conditions which become more common with age and which may present
themselves atypically include organic psychoses, paranoid states, hypochondriasis, and
 suicide.

Aging changes bodily organs and systems, causing less efficient functioning, and thus,
affecting the elderly person’s responses to medications. Any person over the age of 65
has the potential for increased side effects, overdosage, and/or diminished efficacy for a
minimum of 13 drug classes, such as antibiotics, antihypertensives, cardiac medications,
psychiatric medications (antidepressants, tranquilizers, hypnotics, etc.), or pain relievers.
Also, most clinical trials and studies on specific medications are usually performed using
younger people; the result can be drug treatment standards often hazardous to the elderly.
Thus, while the elderly may use the same drugs as younger persons, the effects can be far
different.




                                                6

Research identifies many indicators relating to adverse medication outcomes, some of
which more directly pertain to nursing home patients. These include a patient having five
or more medications in their drug regimen, having 12 or more doses per day, having
more than three concurrent disease states, and the presence of drugs requiring monitoring.
Each of these are fairly common indicators for most nursing home patients.

Thus, the typical elderly nursing home patient may require different care skills and
knowledge of health care professionals than those required to treat the non-nursing home
populations with acute care problems. The primary goal of drug therapy in chronic care
is to maintain and improve, to the extent possible, the patient’s functional capacity and
quality of life.

METHODOLOGY

Focus of Our Series of Reports

In 1996, we undertook a project to assess the extent and appropriateness of drug use by
Medicare and Medicaid residents of nursing facilities. This project, conducted in three
phases, involved 1) a database analysis of the extent of prescription drug use by Texas
nursing home residents eligible for both Medicare and Medicaid; 2) a national survey of
consultant pharmacists to assess their role in identifying and reducing drug use problems
in nursing facilities; and 3) a pharmaceutical review of patients’ records to determine the
extent and appropriateness of prescription drugs utilized by a random sample of Texas
nursing home residents.

The first report, “An Introduction Based on Texas” (OEI-06-96-00080), provides specific
information concerning actual drug expenditures and identifies the types of drugs being
used in Texas nursing facilities. The second report, “An Inside View by Consultant
Pharmacists” (OEI-06-96-00081), focuses on the problems and concerns raised by
consultant pharmacists based on a national mail survey. The third phase of this inspection
involved a pharmaceutical desk review of the medical records of a sample of Texas
nursing home residents, the results of which are included in this report.

This inspection was initiated as part of Operation Restore Trust, an initiative involving
multi-disciplinary teams of State and Federal personnel seeking to reduce fraud, waste,
and abuse in nursing facilities and home health agencies, and by durable medical
equipment suppliers. The initiative focused in five States (California, Florida, Illinois,
New York, and Texas).

Data analysis of prescription drug payments was purposely limited to Texas based on 1)
the availability of Medicaid data and planned identification of the Medicare and Medicaid
population in the State by HCFA and the Office of the Inspector General (OIG), 2)
designation as a demonstration site for Operation Restore Trust, and 3) the large number
of nursing facilities in Texas, approximately eight percent of long term care facilities in
the nation. Texas also ranks third in the nation for total Medicaid spending. Such data
was not readily available for other States. Thus, Texas was the selected site for the first


                                              7
and third phases of this inspection. While we recognize that State operations concerning
nursing homes can vary greatly in their interpretation and enforcement of policies, we
believe the concerns identified in Texas will be generally common to many States.

Focus and Methodology of This Report

Through consultation with pharmacists and nursing surveyors from the Health Care
Financing Administration and with representatives of the American Society of Consultant
Pharmacists, we identified nursing home records (administrative and medical) pertinent to
conducting a desk review for a patient’s pharmaceutical regimen. We selected for review
254 nursing home patients residing in Texas nursing homes during the period January 1 to
July 1, 1995. The nursing homes provided each patient’s most recent assessment and plan
of care, as well as their drug regimen, payment records, and medical records. Any
additional records to assist in a patient’s medication review were also requested from the
nursing home. Appendix B identifies both the letter of request to the nursing home and
the specific records requested for each selected patient.

We contracted with Integrated Healthcare Auditing and Services, Inc. (IHAS) to provide
pharmacists experienced in performing patient medication reviews for nursing home
patients. While there are many methods of performing a medication review for nursing
home patients, we asked pharmacists to conduct both a general review (an overview of
each patient’s drug therapy) and a problem-oriented review (focused on each patient’s
medical problems and their individual responses to their drug therapy). Essentially, these
pharmacists assessed the appropriateness and impact of each patient’s drug regimen.

As no standardized tool is available for the conduct of individual patient medication
reviews, we developed one with help from experts to facilitate the process of recording
findings for each patient under review (see Appendix C). Additionally, for any patient
review involving medical concerns beyond the pharmacist’s expertise, a physician having
geriatric and pharmacological experience was contracted by IHAS to make final medical
determinations. We do not generalize the contract pharmacists’ findings to encompass all
Texas nursing home patients, choosing instead to present the findings only in relation to
the 254 patients reviewed.

This review was conducted in accordance with ths Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              8

                                      FINDINGS 


QUALITY OF CARE ISSUES

Overall, contracted pharmacists consistently identified the same problems and concerns for
patients as those raised by our analysis of Texas data and the national survey of consultant
pharmacists. Medication problems and concerns raised collectively by the three
coordinated reports of this inspection demonstrate the need for stronger monitoring and
more positive enforcement of existing regulations and required reviews of medication
usage in nursing homes.

Medication reviews reveal potentially serious concerns with residents’ drug regimens.

� 	   20 percent of residents received at least one drug judged inappropriate for the
      diagnoses in their records. Of these, 32 percent received three or more inappropriate
      drugs, and five percent had seven or more. For some, the inappropriate drugs are
      rather benign, such as acetaminophen or milk of magnesia. However, others received
      psychoactive drugs such as diazepam and Prozac or drugs normally used to treat
      cardiac or cardiovascular problems and which are likely to pose greater dangers when
      inappropriate for a patient’s condition. Additionally, based on available patient
      records, contract pharmacists identified patients taking medications potentially
      inappropriate according to the patients’ diet requirements (17 percent), plans of care (8
      percent), or by the resident assessments (6 percent).

� 	   16 percent of residents had no prescription in their records to support one or more of
      the drugs in their regimen for which a prescription is generally required. This finding
      reflects those drugs identified in the medical records, including the medication
      administration records, provided by the nursing homes. At a minimum, this finding
      shows a problem with incomplete nursing home records. In the worst case, it shows
      that patients are receiving drugs not ordered.

      The drugs represent nearly 8 percent of the total drugs identified through this review
      and range in type from gastrointestinal preparations and laxatives to antianxiety drugs
      and antidepressants. Additionally, 14 percent of residents are taking over-the-counter
      medications without physician orders. Most of these were for pain control or
      gastrointestinal problems (acetaminophen, Zantac) which may interact with other
      prescribed medications being taken. Further, 23 percent of the patient records
      indicated patients having been prescribed medications for which the records showed no
      orders or receipts to indicate the patient actually received the medication.

� 	   Contract pharmacists identified 20 percent of residents whose records indicated use of
      at least one drug considered generally to be inappropriate for the elderly. These
      inappropriate drugs were identified by matching drugs identified in each patient’s



                                                9

      records against a list of 20 drugs generally considered inappropriate for elderly
      patients by a panel of experts (see Appendix A). Some of these drugs are
      inappropriate because of being outdated and having been replaced by more efficacious
      and less risky alternatives as well as their unique effects on the elderly. As with any
      medication, one should be aware that some medical situations might warrant the use of
      these drugs. Of the patients identified, 21 percent had two or more such possibly
      inappropriate drugs. This confirms findings of the first report of this seriesI in
      which a comparison of Texas drug records with the list found that 20 percent of
      residents received one or more of the listed drugs.

There are many challenges to prescribing and monitoring medications for elderly nursing
home patients. Multiple disorders in the elderly combined with patients having five or
more medications in their drug regimen, having 12 or more doses per day, having more
than three concurrent disease states, and taking medications which require monitoring
greatly complicate identification of possible adverse effects of a patient’s medication
regimen. This complex picture is further compounded by the need to balance what could
be inappropriate medications against the benefits of relieving or treating diseases which
warrant such usage for the enhancement or maintenance of an individual’s quality of life.

Arguably, pharmacists’ professional education gives them valuable expertise and clinical
knowledge concerning pharmacotherapy. Critical to this expertise and extremely
important for the nursing home residents is monitoring the effects of medication usage,
either for maintaining or improving a patient’s health status or to identify any effects of
medications or disease which may undermine such improvement or maintenance.

� 	   Findings of the contract pharmacists indicate that some patients may be experiencing
      unnecessary adverse medication reactions as a result of inadequate monitoring of
      medications. Some of the patients’ records identified medications which possibly
      contributed to their constipation (14 percent), falls (8 percent), or depression (5
      percent). For 9 percent of the patients, their records indicated other adverse effects
      possibly caused by medications. Patients’ records indicated a potentially serious lack
      of necessary monitoring:

         -	   19 percent of the patients’ records gave no indication of monitoring for
              medication side effects when required;

         -	 23 percent of the records had no indication that required lab testing had been
            performed;

         -	   19 percent of the records did not indicate that necessary physical assessments
              had been conducted.

� 	   According to available records, 21 percent of residents received medications which
      may sometimes interact negatively with other drugs included in their medication
      regimens. For example, if a patient received both glyburide (oral antidiabetic agent)
      and levothyroid medications, the glyburide may decrease the necessary effects of the


                                                10
      thyroid medication. However, some negative interactions can be expected when a
      patient has a complex diagnostic picture. Yet, medication interactions may sometimes
      be so severe as to be absolutely contraindicated; medications may represent poor
      therapeutic choices if other therapy choices are available; or the risk of a negative
      interaction may be justified when there are no other treatment options available.

� 	   Nearly one-third of residents received more than one drug from the same class,
      sometimes considered a potential hazard unless the drug regimen requires this
      combination for efficacy or to meet the multiple demands and needs of multiple
      disease states for which a patient may be diagnosed. Drugs from the same class may
      produce similar side effects which can be additive, in which case they definitely need
      to be carefully managed. Yet, 19 percent of the records indicate no monitoring for
      appropriate efficacy when warranted.

      Several examples illustrate the concern raised by the contract pharmacists about
      patients taking multiple drugs with additive side effects that require monitoring. One
      example is a patient concurrently receiving nortriptyline (tricyclic antidepressant),
      Prozac (fluoxetine, for treatment of major depression, obsessive-compulsive disorder,
      etc.), and haloperidol (haldol, antipsychotic agent). Another example was a patient
      taking three medications all of which can cause sedation, lorazepam (anti-anxiety agent
      also used for insomnia), cyproheptadine (antihistamine), and perphenazine
      (antipsychotic agent). Another patient was taking two forms of salicylates (aspirin)
      which may result in toxicity; one taking cimetidine (H2-receptor antagonist used for
      treatment of upper gastrointestinal problems such as an ulcer) which may decrease
      absorption of iron salts or increase the effects of temazepam (sleep aide) also required
      by the patient; and another was taking both haldol and amitriptyline for insomnia.

SHORTCOMINGS             OF MEDICATION          REVIEWS

Resident medication records are often incomplete, making it difficult or impossible to
identify or confirm potential drug regimen problems.

In many of the reviewed cases, there were a number of records in which our contracted
pharmacists were unable to find sufficient supporting information to make any definitive
determination.

� 	   As previously stated, 20 percent of residents had clearly documented use of drugs
      inappropriate for the recorded diagnoses. However, another 31 percent of patients’
      records were insufficiently complete to allow the pharmacists to make determinations
      concerning the appropriateness of prescribed medications for indicated diagnoses. An
      incorrect diagnosis, or no easily available diagnosis, forces pharmacists to work in a
      void. Incomplete records could cause drug regimen problems to be significantly
      understated.

      Nursing homes are required to maintain each patient’s most recent assessment, plan of
      care, and the doctor’s orders which provide much of the necessary information for a


                                                11
      pharmacist to identify any factors which may negatively affect a patient’s medication
      regimen. Thus, between these three documents, pharmacists should be able to make a
      determination. However, the contracted pharmacists often were unable to make a
      decisive determination because of insufficient records.

� 	   Also previously discussed, the contractors identified several patients for whom
      prescribed medications may have contributed to constipation, falls, or depression.
      These situations are often attributable to inappropriate use or dosages of certain drugs.
      However, the contract pharmacists were unable to link these events directly to adverse
      drug reactions because of incomplete resident records (i.e., daily nursing notes were
      not requested, unavailable individual patient drug reviews, lack of orders, etc.). For
      the same reason, they were unable to rule out a resident’s drug regimen as the cause
      of these conditions.

It should be noted that consultant pharmacists may find themselves in a similar situation of
not having all the necessary records to fully conduct their reviews. Additionally, by not
being in the nursing home on a routine basis, they may lack familiarity with the location
of critical information in a facility’s files.

Often, contract pharmacists were unable to determine whether a patient had received
a monthly drug regimen review during the sampled time period.

Nursing homes did not provide copies of patient’s monthly drug regimen reviews.
Reasons cited included:

      1) 	 not being able to obtain the individual report from the facility’s consultant
           pharmacist. Most consultant pharmacists provide services to more than one facility
           and their drug regimen review records may be kept at home or in the contracted
           company’s office, rather than at the nursing home.

      2) 	 administrative changes in personnel and multiple record locations. New employees
           are sometimes uncertain as to where certain patient reports are maintained.
           Because there is no requirement to file the drug regimen reports in each patient’s
           clinical record in the facility, reports may be maintained in numerous possible
                                                         I
           locations.

      3) 	 nursing homes sometimes only maintain a summary report of concerns. The
           facility may not require their consultant pharmacist to provide individual patient
           reports, choosing instead to have a summary report which only identifies patients
           for whom the consultant pharmacist has some concern.

      4) drug regimen reviews were not conducted as required.




                                                12
Our contracted medication reviews required much more time than the usual review
times reported by nursing home consultant pharmacists. Allotting more time for
conducting reviews can help detect more medication concerns.

As previously discussed, medication reviews for nursing home patients can be extremely
complex due to the number of primary and secondary diagnoses patients may have as well
as the number of medications being prescribed. Contract pharmacists reported patients
having an average of three primary and three secondary diagnoses and receiving an
average of ten medications. They reported completing each patient’s medication review in
an average time of 50 minutes (a few reviews took as little as 20 minutes). Yet, direct
responses from consultant pharmacists indicated they spend an average of 5-10 minutes on
each patient’s monthly drug regimen review, with most initial reviews taking 15-20
minutes.

The contract pharmacists’ lengthier, more in-depth record reviews identified medication
problems or concerns for 20 percent of the patients which had not been previously
identified by the nursing home consultant pharmacists. Their concerns included lack of
monitoring for efficacy; drugs which were clearly inappropriate for use by elderly
individuals; inappropriate method of administration (i.e., crushing of sustained action
drugs); medications inappropriate for diagnoses; medications being received on schedule
with a duplicate available “as needed” (PRN); some PRN medications not having
prescriptions; extending duration of drug use beyond the timeframe ordered; providing
medications for which the patient has allergies; and medications being ordered for dosages
other than those the patient received.

Further complicating regular medication reviews can be the number of over-the-counter
medications being used by the nursing home patients. This record review indicates most
patients (82 percent) use over-the-counter drugs and nearly 17 percent of these are being
used without physician orders. Our previous report found that a serious weakness in
medication reviews is that many consultant pharmacists said they do not review use of
over-the-counter (OTC) drugs. l7 The principal reasons stated for such non-review are
that nursing homes do not allow OTC drugs without prescriptions, that nursing staff check
patients’ rooms for any non-prescribed medications, and that the pharmacists do not have
sufficient time to do the reviews and therefore are unable to discuss medication regimens
with patients.




                                            13 

                     RECOMMENDATIONS

Based on the collective concerns raised in this report and the two other reports resulting
from this inspection, “An Introduction Based on Texas” (OEI-06-96-00080) and “An
Inside View by Consultant Pharmacists” (OEI-06-96-00081). we recommend that HCFA
work with the States and others to improve the quality of prescription drug care in nursing
homes. To accomplish this objective, HCFA should:

1. 	 Continue to monitor and encourage reduction in the use of potentially
     inappropriate prescription medications by the elderly nursing home population.18

2. 	 Work with other interested government entities, such as the Assistant Secretary
     for Planning and Evaluation and the Agency for Health Care Policy and
     Research, to:

   a. 	 Identify and analyze reasons for and the appropriateness of cost escalation for
        certain types of drugs used in nursing homes (i.e., gastrointestinal,
        psychotherapeutic, cardiac, cardiovascular, and anti-infectives)” and

   b. 	 Examine resident and facility-specific characteristics and drug utilization data to
        better understand the factors contributing to the differences between nursing homes
        in the costs of prescription medications used by patients.

3. 	 Strengthen the effectiveness and impact of medication reviews conducted by
     pharmacists in nursing homes by:

   a. 	 Providing guidance to medical, nursing, and pharmaceutical personnel on handling
        notifications about medication concems;20

   b. 	 Requiring pharmacists to consult patient assessments and plans of care in the
        conduct of their medication reviews;

   c. 	 Reviewing and updating routinely Appendix N of the Survey/Certification protocol;
        the Drug Class Index of the Minimum Data Set, Section 0; Appendix P, guidelines
        for psychopharmacologic medications used in long term care facilities; and any
        other related medication policy and procedureszl and ensure that consultant
        pharmacists routinely conduct drug regimen reviews using these protocols as one
        set of available tools for improving their reviews but also for helping to ensure
        they conduct reasonably complete reviews. It may be that HCFA could require
        nursing homes hiring or contracting with pharmacists to provide these tools; and

   d. 	 Encouraging prescribing physicians to provide clinical outcome expectations for
        medications prescribed and requiring pharmacists to monitor for these
        expectations. 22



                                             14 

4. 	 Enforce and enhance HCFA’s training requirement of personal care staff (nurse
     aides) (i.e., aides’ training curriculum should include information on how to
     recognize and report behavioral signals or signs of possible contraindications,
     adverse reactions, or inappropriate responses to medications).23

5. 	 Strengthen and enforce coordination, communication, and patient documentation
     in nursing homes by:

   a. 	 Exploring the feasibility of requiring nursing facilities to maintain in one central
        location all records pertinent to a patient’s medical care;

   b. 	 Requiring consultant pharmacists to document each patient’s medication review and
        resulting actions; and

   c. 	 Requiring that pharmacists’ concerns always be reported to the attending physicians
        and nursing home medical directors, as well as to the Directors of Nursing.

6. 	 More vigorously pursue enforcement of positive resident health outcomes. As
     part of this pursuit, HCFA should require pharmacist’s direct input to achieving
     optimal clinical outcomes for residents (i.e., fewer falls or pressure sores as well
     as less frequent urinary incontinence, which can all be exacerbated by certain
     psychopharmacological, cardiovascular, and other drug therapies).U Options for
     HCFA to consider:

   a. 	 Encouraging consultant pharmacists, nursing home medical staff, and physicians to
        become more familiar with HCFA’s defined quality of care indicators which are
        related to pharmacy services and which may enhance pharmaceutical patient
        outcomes;

   b. 	 Encouraging consultant pharmacists to interact with (counsel and inform) patients
        as part of their medication reviews; and

   c. 	 Including in State and Federal surveys, process-focused reviews of pharmacists’
        recommendations and subsequent actions by appropriate medical and nursing
        personnel, and the resulting clinical outcomes for the patients.




                                               15 

   COMMENTS                      ABOUT              DRAFT            REPORTS

We solicited comments from agencies within the Department of Health and Human
Services which have responsibilities for policies related to Medicare and Medicaid and
long term care. We also requested input from several national organizations representing
the interests of nursing homes, patients, or providers. We appreciate the time and efforts
of those providing comments.

Departmental Comments

Within the Department, we received comments on the draft reports from the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE). Both agencies concurred with the recommendations; HCFA emphasized the need
for further studies to assess the extent of continued use of potentially inappropriate drugs,
other avenues of possible cost savings related to drugs, and the need to determine and
understand the potential sources of the escalating costs and claims for certain types of
drugs used in nursing homes. The final reports reflect several clarifications or changes
based on their suggestions. The full text of each agency’s comments is provided in
Appendix D.

Comments from External Organizations
                                                                                        .
We also received comments from the following external organizations: American Health
Care Association; American Association of Homes and Services for the Aging; American
Medical Directors Association; American Society of Consultant Pharmacists; and National
Association of Boards of Pharmacy. Most of the associations concurred with one or more
of the recommendations within each of the inspection reports. All commentors support
the need for better communication and coordination between nursing home staff and other
healthcare providers, training nurse aides, and understanding the implications of nursing
home medication services and associated costs.

Several organizations questioned the methodology used in this inspection, particularly for
the consultant pharmacist survey. However, as with any evaluation, there are always
some limitations in how data and information cab be obtained, given time and other
resource constraints. Further, while we acknowledge that a survey of this nature
introduces some bias and subjectivity, we also believe that the survey of consultant
pharmacists provides us with an up-close view of what is happening with prescription drug
use in nursing homes. Moreover, the results of the consultant pharmacist survey are
consistent with our results from our two other methodologies.

Some comments expressed concerns about the use of the term, “inappropriate.” As
explained previously, use of this term in reporting concerns with a patient’s medication
regimen are somewhat a matter of opinion. The evidence provided in these three reports
does not prove that any one prescription was improper, but that closer examination is



                                             16 

warranted. Also, while the use of such a drug may be supported by physician orders in
individual cases, use of the drug, in general, is likely to be considered inappropriate.

Some comments addressed the implications of broadening Federal oversight. There is
clear concern about the responsibility for medication issues being the responsibility of the
physician, not the nursing home. Further, some organizations expressed concern that
these particular issues did not result in direct recommendations about the physician’s role
for nursing home patients’ medication regimens. We felt that further examination of this
area is warranted before recommending changes which would impact so many entities
involved in the process.

In conclusion, we believe the three reports collectively, and each using a different
approach, strongly indicate that the intent of the provisions of the OBRA Acts concerning
prescription drug usage are not being clearly fulfilled. Further, HCFA has authority to
correct and enhance quality of care for nursing home patients. The recommendations we
present attempt to facilitate the initial steps of this effort, and to address some concerns
evidenced in the reports and received comments. While we recognize that great strides
have been made to meet the OBRA requirements, we believe further effort remains by all
the players involved (HCFA, associations and their members, nursing homes, and
residents and their families) to further improve quality of care for nursing home patients.

The full text of each organization’s comments is provided in Appendix E.




                                             17 

                                ENDNOTES 


1.    Health Care Financing Administration, BDMS, Division of Program Systems, 1996.

2.    Keitz, Todd. “10 Things You Should Know About the Long Term Care Market.”
      Medicinal Marketing and Media. 30(5):42-46. May 1995.

3.    Beard, Keith. “Adverse Reactions as a Cause of Hospital Admission in the Aged,”
      Drugs & Aging, Vol. 2, No. 4 (July/Aug. 1992), pp. 356-67.

4.    Published October 9, 1995, in the Archives of Internal Medicine, the data further
      illustrates that while spending one dollar to purchase prescription drugs, Federal and
      State governments also spend another dollar to correct the problems caused by misuse
      of those drugs.

5.    General Accounting Office. “Prescription Drugs and the Elderly: Many Still Receive
      Potentially Harmful Drugs Despite Improvements. ” Letter Report GAO/HHES-95-
      152. July 24, 1995.

6.    Knowlton, Calvin H. Statement before the Senate Special Committee on Aging,
      Hearing on Drugs and the Elderly, Washington, D. C. March 28, 1996.

7.    Inappropriate use of medications can take a number of the following forms:
      drug-drug interaction; drug-age contraindication; drug-allergy contraindication;
      drug-disease contraindication; incorrect drug dosage; incorrect duration of drug
      therapy; and less effective drug therapy.

8.    Spore, Diana L., P. Larrat, et al. “Inappropriate Drug Prescriptions for Elderly
      Residents of Board and Care Facilities. ” American Journal of Public Health,
      March 1997, Vol. 87, No. 3, pp. 404-409.

9.    Beers, Mark, Joseph G. Ouslander, Irving Rollingher, et al. “Explicit Criteria for
      Determining Inappropriate Medication Use in Nursing facility Residents. ” Archives
      of Internal Medicine, Vol. lSl(Sept. 1991), pp. 1825-32.

10.   42 CFR Set 483.60.

11.   Perri, M., J. Kotzan, L. Pritchard, et al. “OBRA 90: The Impact on Pharmacists and
      Patients. ” American Phamzacy, February 1995, Vol. NS35, No. 2, pp. 24-28.

12.   Nelson, Arthur A. “The ‘Smoking Gun’ in OBRA 90.” Pharmacy Times, February
      1993, pp. 49-58.

13.   Office of Inspector General, Office of Evaluation and Inspections, “Prescription
      Drug Use in Nursing Facilities: An Inside View by Consultant Pharmacists” (OEI-
      06-96-0008 1)) November 1997.


                                             18 

14.   Fanale, R. H., et al. “The Nursing Home Medical Director,” Journal of the
      American Geriatrics Society, 1989, 37(4), pp. 371-373.

15.   Merck Manual, 15th edition.

16.   Office of Inspector General, Office of Evaluation and Inspections, “Prescription
      Drug Use in Nursing Facilities: An Introduction Based on Texas” (OEI-06-96-
      OOOSO),November 1997.

17.   Office of Inspector General, Office of Evaluation and Inspections, “Prescription
      Drug Use in Nursing Facilities: An Inside View by Consultant Pharmacists” (OEI-
      06-96-0008 l), November 1997.

18.   This can be accomplished at the State level by assuring the inclusion of nursing
      home residents in the automated prospective drug utilization review programs
      already in place. At the nursing home level, State and Federal surveyors,
      consultant pharmacists employed as a requirement of OBRA 1987, and physicians
      serving as medical directors or primary care physicians should be reminded of the
      dangers associated with these drugs and directed to continue to actively pursue a
      reduction in their use. Finally, similar analysis of data from additional States
      should be undertaken to further assess the extent of the continued use of these
      contraindicated drugs.

19.   We understand that new and more effective products may be more costly and may
      be the most appropriate for certain patients’ diagnoses. However, this may be only
      one reason for an increase in certain drug costs. In light of concerns expressed in
      the medical literature, further investigation is warranted to determine whether some
      of these drugs are medically necessary.

20.   This should include defining what constitutes both “acting on” concerns of any
      healthcare team member, including pharmacists, and “documentation of actions
      taken” in records readily accessible to nursing home and other State/Federal staff
      (i.e., in the patient’s clinical record).

21.   Include both drugs about which there are utilization concerns (H2 antagonists, non-
      steroidal anti-inflammatories, narcotics, antibiotics and anti-infectives, and
      gastrointestinals) and drugs which in many instances may be inappropriate for use
      by elderly persons.

22.   We recognize that most clinical expectations are clearly indicated by the prescribed
      medication, it may not be reasonable to expect that those outcomes have been
      clarified for the remaining members of the healthcare team.

23.   While we do not believe nurse aides should be able to identify specific probable
      causes for changes they observe, they should be sufficiently aware that those
      changes may be reflective of possible clinical problems. As part of HCFA’s
      required on-going training of personal care staff (nurse aides), and as pharmacists


                                            19 

        are either directly or indirectly currently employed by the nursing homes to
        perform drug regimen reviews, pharmacists could provide the necessary in-service
        training on the recognition of possible behavioral signals or signs of potential
        contraindications, adverse reactions, or inappropriate responses to medications.
        However, HCFA could explore cost-effective alternatives to pharmacists providing
        this training.

24. 	   Nursing homes, like physicians, have a major responsibility for resident quality of
        care. This includes efforts to ensure, promote, and encourage necessary
        communication and corrective actions for health concerns raised by any healthcare
        team member. Clearly, pharmacists performing medication review services, either
        as nursing home employees or contractors, are an integral part of the healthcare
        team.




                                                    4




                                             20 

                                    APPENDIX                 A

                                    20 Drugs Experts Consider
                                   Inappropriate for the Elderly


The 20 drugs listed below were judged generally inappropriate for elderly patients by a panel of
experts. The panel’s results and methodology, published in 1991 and used consistently since that
time, indicate that these drugs should normally not be used with elderly patients. However, they
stress that there could be some medical situations in which use of these drugs would be appropriate.
Further, it should be noted that this list constitutes a minimum of drugs not considered appropriate
for the elderly and could be revised to include others.


       Medication               Use                              Comment

   Amitriptyline             To treat 
                      Other antidepressant
                             depression 
                    medications cause
                                                             fewer side effects

   Carisoprodol              To relieve severe 
             Minimally effective
                             pain caused by 
                while causing
                             sprains and back 
              toxicity; potential
                             pain 
                          for toxic reaction
                                                             is greater than
                                                             potential benefit

   Chlordiazepoxide          As a (minor) tranquilizer 
     Shorter-acting
                             or antianxiety 
                benzodiazepines are
                             medication 
                    safer alternatives

   Chlorpropamide            To treat diabetes 
              Other oral medications
                             (a hypoglycemic agent) 
         have shorter half-lives
                                                              and do not cause
                                                              inappropriate
                                                              antidiuretic hormone
                                                              secretion

   Cyclandelate              To improve blood 
               Effectiveness is in
                             circulation 
                    doubt; no longer available
                                                              in the U.S.




                                                   A -1 

   Medication         Use                             Comment

Cyclobenzaprine   To relieve severe 
             Minimally effective
                  pain caused by 
                while causing
                  sprains and back 
              toxicity; potential
                  pain 
                          for toxic reaction
                                                  is greater than
                                                  potential benefit

Diazepam          As a (minor) tranquilizer 
     Shorter-acting
                  or antianxiety 
                benzodiazepines are
                  medication 
                    safer alternatives

Dipyridamole      To reduce blood-
               Effectiveness at low
                  clot formation 
                dosage is in doubt;
                                                  toxic reaction is
                                                  high at higher
                                                  dosages; safer
                                                  alternatives exist

Flurazepam        As a sleeping pill 
            Shorter-acting
                  (a hypnotic) 
                  benzodiazepines are
                                                  safer alternatives

Indomethacin      To relieve the 
                Other nonsteroidal
                  pain and 
                      anti-inflammatory
                  inflammation of 
               agents cause less
                  rheumatoid 
                    toxic reactions
                  arthritis 


Isoxsuprine       To improve blood 
              Effectiveness is in
                  circulation 
                   doubt

Meprobamate       A (major) tranquilizer 
        Shorter-acting
                  (used for anxiety) 
            benzodiazepines are
                                                  safer alternatives

Methocarbamol     To relieve severe 
             Minimally effective
                  pain caused by 
                while causing
                  sprains and back 
              toxicity; potential
                  pain 
                          for toxic reaction
                                                  is greater than
                                                  potential benefit




                                         A -2 

      Medication             Use                            Comment

  Orphenadrine 	          To relieve severe             Minimally effective
                          pain caused by                while causing
                          sprains and back              toxicity; potential
                          pain                          for toxic reaction
                                                        is greater than
                                                        potential benefit

  Pentazocine 	           To relieve                    Other narcotic
                          moderate to severe            medications are
                          pain                          safer and more
                                                        effective

  Pentobarbital 	         As a sleeping pill            Safer sedative-
                          and to reduce                 hypnotics are
                          anxiety (hypnotic)            available

  Phenylbutazone 	        To relieve the                Other nonsteroidal
                          pain and                      anti-inflammatory
                          inflammation of               agents cause less
                          rheumatoid                    toxic reactions
                          arthritis

  Propoxyphene 	          To relieve mild to            Other analgesic
                          moderate pain                 medications are more
                                                        effective and safer

   Secobarbital 	         As a sleeping pill            Safer sedative-
                          and to reduce                 hypnotics are
                          anxiety (hypnotic)            available

   Trimethobenzamide 	    To relieve nausea             Least effective of
                          and vomiting                  available
                                                        antiemetics




Source :
Beers, Mark, Joseph G. Ouslander, Irving Rollingher, et al. “Explicit Criteria for Determining
Inappropriate Medication Use in Nursing Home Residents. ” Archives of Internal Medicine, Vol.
lSl(Sept. 1991), pp. 1825-32.




                                               A -3 

                                    APPENDIX                   B

                             Nursing Home Patient Records Requested


For an identified review period, nursing homes for the selected 254 patients were asked to provide
any patient record, including the initial Patient Assessment and Plan of Care, related to the initial
admit of the patient to the facility. For the time period related to each patient’s indicated stay
period in the nursing home, nursing homes were also asked to provide any subsequent changes as
well as the following items specific to the time period under review:

   Patient Assessment/Evaluation(s) 

   Plan(s) of Care 

   Medication Administration Records 

   Physician Prescriber Orders 

   Physician Prescriber Progress Notes 

   Behavioral Monitoring Sheets 

   Laboratory Orders 

   Laboratory Reports 

   Incident or Accident Reports 

   Nursing Monthly Summary Progress Report(s) 

   Nursing Quarterly Summary Report(s) 

   Drug Regimen Review(s) 

   Consultant Pharmacist Review and Remarks Sheet(s) 

   Consultant Pharmacist Quarterly Report(s) 

   Consultant Pharmacist Correspondence (related to patient reviews) 


Facilities were also asked to provide any additional documentation including assessments by other
providers which may impact medication therapy (i.e., diet, therapists, etc.).

The table below provides a sample of the letter sent to the nursing homes for the required records.




                                                  B-l
                                                               Letter to Nursing Homes for Required Records


) Dear Nursing Home Admimsrraror:

  The Office of Evaluatton and Inspecuons.pan of rhe Office of Inspector General. conductsnational program eraluar~ons. Although orher InspectorGeneral offices
  conduct fraud invesngationsand audits. our function IS IO provide policy makers and managerswnh analysisand recommrndarionsfor improving:programs.
  policies. and regularionsmvolvmg Medxare and Lledicaid We are currenrly involved in an evaluarionto assessthe extem and appropnatenessof drug use b!
  patlen& m nursing homes.


   Your facility has been randomly selected for our review of medicationusage in Texas nursinghomes. Under aurhorlrygrarxed 10 the Office of InspectorGenrral.
‘, by 42 CFR Section 3525. we are requesrmg rhaf you provide panent records for one or a few randomly seiecred resldenrs Thesr resldeno are ,Wei~~ve  rl~yrhle
‘~ benejicmrres for w/Km Medmwf pardfor rhe srqs in !our/ncr/in durrng 1995 AtrachmentA idennfies the resldenror residents(by name. their Hcakh Insurance
! Claim Number (HICN) number. and rhe stay date(s)) for whom we require copies of applicableparlent records

  To ensure that we have sufticienr information to conductour review. copies of the nursinghome records should mclude any records rrlared to rhr parirnr’s stay as
  indicatedon the attached list (generally. a 3.month period). Additionally. we need any patient specific record for rhe firsu’initialadmisslonto your facrlity. The
, following records are requestedfor each resident:

           1.      Pamien*          m               for the first/initial admission fo your facility
           2.      Patimt ~sEv&&km4s1                     for fhe period specified in Attachment A (hereafter                       referred   to as the “stay1
           3.         R3n of Crs for the first/initial admission to your facility
           4. 	       l%~Itl      of Crs      for the period related to stay
                                               . .    .
           5.                              AdmsbWm         Ibawds   (MARI for the period                      related    to stay
           6.         Phy&h~           -                olda      for the period      related      to stay
           7. 	       R@tim            Rgcrba           Roqsrr       NCROS for the period           related    to sfay
                                            .  .
           a.                           Mmtamg            Sbets      for the period      related     to stay
           9.         IAS adas             for et.9 pertod      related    to stay
           10.        Id       F@ats        for the   period related to stay
           11.        Wa           Q Accklmt            lbpaa       for the period       related    to stay
           12.        Mus@j       ManMy          Smmq             Rogsn        Rapm      for the period        related    to stay
           13.        m            Qmfuiy          Summy           Rapat     for the period        related    to stay
           14.        Drup w                  kpat       to m                    for each month for the period related to stay
           15.        Ihug      UtSzdm          Raort      for the period      related    fo stay
           16.        c         -ttRpmrcht-rd-                       Sheaf for each specified patient for the period related to stay
           17.                    phamvirt w            Rport for the period related 10 stay
           18. 	                 Rpmrcirt canrpmdacs           to/from physicianlsl. Director of Nursing, or other regarding patient’s medication therapy or
                      associated issues including lab issues related fo medicationlsl for the period related to stay
           19. 	      m pm&t avln(mnr         conducted by other professional personnel impacting medication therapy (e.g.. Dietary Evaluation.
                      PsychiatrWPsychologic evaluation. Social Evaluation. Dental, etc.1 for the period related 10 stay

/’If you determine that other information would be valuable to our assessment of drug usage, please provide this information, as well.


I Instructions

  .        All copies must be complete, clear, and legible. 

  .        All copies should clearly indicate the name or Medicare Health Insurance Number (HICN) at the top left corner of each page. 

  .        All copies should indicate, at the top left corner of each page, the type of document you are providing (e.g., DUR Page 1 of 4. CP Review 

           Sheet for October, etc.) Thts is to ensure that the medical consultants performmg the review will be able to easily identify the type of
           information they are reviewing.
  .	       The attached form Mttachment B1 must be filled out as a summary sheet for each patient for each stay indicating which forms you have
           copied in relation to the indicated stay and are sending to this office. In a few cases this might necessitate duplicate copying Of some
           records. However, it is very important that all records associated with each patient’s stay be a complete, stand alone package.

           .          If forms are unavailable, indicate this in the space provided, giving the reason for not provtding that form (e.g.. not maintamed in /
                      this facility; unable to locate; etc.).                                                                                              II
                                                                                                                                                           I,
           .	         If additional or other types of records are provided, but not listed on the attached form, add the type to the list under the                        I:
                      category “Other.”
                                                                                                                                                                           I/

   .                                                                                                                                                                       (1
           Please mail the requested information to this office by November 18 using first class or overnight mail.


  If you have any questions regarding this request, or if you will be unable to provide the requested records by November 18, please contact Leah
                                                                                                                                                                           11
  Bostick or Kevin Golladay at 11800-848-8960.     Thank you very much for your assistance and prompt response.
                                                                                                                                                                           1,

                                                                                                                                                                            I
   [Appendix               B to the letter is not included.]                                                                                                           -




                                                                                                                 B-2 

                                 APPENDIX                  C

                             Pharmaceutical Desk Review Form


Medical Review Screening and Certification

Patient Name:                                      DOB:

Patient Sample #:                                    Gender: M/F

Medicare Number:

Nursing Facility:

Medical Record #:

Sample Stay Period:                          To                    (3 months, generally)


NURSING FACILITY PATIENT DIAGNOSES

     Primary Diagnosis                         Secondary or Co-Morbidities

1.




CONTINUE WITH MEDICATION SUMMARY SHEETS 

COMPLETE MEDICAL REVIEW SCREENING AND CERTIFICATION 





                                             C-l
---..-   _.. __---   __-   -.. 1-   ---.   .-..-   “.--_l_--..-.---.~-   --
     PATIENT         LAST NAME                                                                           MEDICATION            SUMMARY          SHEET        PATIENT       SAMPLE   #


         PAGE I OF 4                  2                      3                   4                  $5                 6a             6b
                                                                                                                                      6b                *I
                                                                                                                                                        *I             8
                                                                                                                                                                       8                9
                                                                                                                                                                                        9       IO
                                                                                                                                                                                                IO        II
                                                                                                                                                                                                          II      I2

                                  NDC X FOR                      LIST
                                                    MED ON NDC LIST        MED IN                 MED                  RX        Rx SPECIFIES     M.D. ORDERS      ORDEKS
                                                                                                                                                                   ORDERS       MI> OKDLRS      PRN   0RDI:RED   OTC
                                 MEDICATION            BUT NOT IN         RECORDS           INAPPROPRIATE          AVAILABLE     NO GENERIC       INCOMPLETE        IIAVE        (‘OKKI,(‘l’,
     MEDICATION     NAME                                RECORDS          BUT NOT ON         FOR DIAGNOSIS                       SUBSTITUTION                       SPECI1.K
                                                                                                                                                                   SPEC1I.K       (‘IJKKI;NI
                                                                           NDC LIST                                                                              DIKECTIONS          WIII:N
                                                                                                                                                                 FOR USAGt          SIGN1.I)


I



2


3


4


5


6


I


8


9


IO 


II
II   


I2
I2   


13 


14 


I5 

15




CODE:


“Y” FOR YES                  “IN”    CODE     FOR   INSUFFICIENT   INFORMATION       TO   MAKE    DETERMINATIONS
“N”      FOR   NO            “NA”     FOR   NOT APPLICABLE
                             “DN”     FOR   DON’T KNOW
                             IF “Y”, Use Remarks Section ‘to explain potential or actual problem
                                                      __~

     COMPLETED             BY:                                                       NAME & TITLE                                                            DATE:



                                                                                            c-2
     PATIENT        LAST NAME                                                                   MEDICATION         SUMMARY            SHEET       PATIENT       SAMPLE         #

          PAGE 2 OF 4                 ‘13             I4             I5                 16                  I7                  ‘IX               19                20                      ‘?I                    22


                                     MED        DOSAGE WITHIN      DOSE              DOSE               DOSE NOT              DOSAGE           OPIYMAL        DURATION                 DIIRATION             MEDICAL/MD
                                INAPPROPRIATE    APPROPRIATE     EXCESSIVE       INSUFFICIENT         ADJUSTED TO         INAPPKOPRIATE       DURATION      INSUFI~I(‘II:N’I           I:X(‘i:SSIVE         JUSTIFICA’~ION
     MEDICATION    NAME          FOR ELDERLY      SUGGESTED                                         COMPENSATE      FOR    FORELDERLY                                              (I.ONGI:K      ‘I-IIAN    AVAII.ABl.li
                                                    RANGE                                               REDUCED                                                                     AI’I’KOPKIATL)           FOK LONGI:K
                                                                                                     RENALItIEPATIC                                                                                           I)lIKATION
                                                                                                        FUNCTION


I

2

3

4

5

6

I

8

9

I0

II

    I2

13

    I4

    I5




CODE:




I
    “Y” FOR YES             “IN” CODE FOR INSUFFICIENT      INFORMATION      TO MAKE DETERMINATIONS
    “N” FOR NO              “NA” FOR NOT APPLICABLE
                            “DN” FOR DON’T KNOW
                            IF “Y”, Use Remarks Section to explain potential or actual problem
                                           ___~~~.~                            .___.~       - ~~~~~.~                     --- ~-

         COMPLETED        BY:                                                NAME & TITLE                                                        DATE:




                                                                                  c-3
     PATIENT        LAST NAME                                                                            MEDICATION          SUMMARY      SHEET          PATIENT        SAMPLE     #

         PAGE 3 OF 4                23                          *25                           ‘26                  21            28              29             30               31              32           ‘33

                             APPROPRIATE &             CORRECTROUTE                 MEDICATION   IS OF        NEGATIVELY         MAR        NECESSARY      MONITORING         GI:NDL:R        AI.LERGY   NftiATlVLLY
                               ACCURATE                        OF                   SAME DRUG CLASS            INTERACTS      REFLECTS     LAB TESTING       FOR SIDE         CONTRA-         (‘ONTRA-    INTERACTS
       MEDICATION   NAME    ADMINISTRATION             ADMINISTRATION                 AS OTHER ME0            WITH OTHER       DOSE AS    FOR ROUTINE.       EFFECTS        INDl(‘ATlON     INDICATION        wrrtl
                               TECHNIQUE                                               BEING TAKEN            MEDS BEING     PRESCRIBED      ON-GONG                                                      DIIiT/I~00D
                                                                                     (SPECIFY OTHER         TAKEN (SPECIFY                 MONITORING
                                                                                          DRUG8              OTHER DRUG#)


 I


 2

 3

 4

 5

 6




L
 “Y” FOR YES               “IN”   CODE   FOR     lNSUFFlClENT         INFORMATION        TO    MAKE   DETERMINATIONS
 “N”    FOR   NO           “NA”   FOR    NOT     APPLICABLE
                           “DN”   FOR    DON’T     KNOW
                           IF “Y”, Use Remarks Section to explain potential or actual problem
p-------.                                               .-__--~~                   ~~~~- ___~                                   ~_=~..~~~_~~~.

     COMPLETED BY:                                                                                     NAME & TITLE                                                                 DATE:



                                                                                                c-4
        PATIENT   LAST NAME                                                            MEDICATION      SUMMARY   SHEET        PATIENT      SAMPLE    #

  PAGE 4 OF 4             34            35            36             *37                 38       39      40          41              42            43   44   45   45

                    CONTRlauTtD   CONTRlWTED    CONTRIBUTED    CONTRlBUTED         rxmTRlB”TED   MLD      Mm       PHYSICAL




CODE:



“Y” FOR YES       “IN” CODE FOR INSUFFICIENT INFORMATION TO MAKE DETERMINATIONS
“N” FOR NO        “NA” FOR NOT APPLICABLE
                  “DN” FOR DON’T KNOW
                  IF “Y”, Use Remarks Section to explain potentialor actual problem




        COMPLETED        BY:                                       NAME & TITLE                                               DATE:



                                                                             C-5
                      Remarks Section


Use this page for additional information related to medication concerns marked in columns


         MEDS#                   COLUMN #                   REVIEWER’S NOTES




Attach additional page[s], if needed




                                                   C-6
                               Medical Review Screening and Certification


After completing the Medication Summary Sheet for this patient, answer the following questions.

1.     Did the consultant pharmacist for the nursin home identif the same concerns as you did?
zI     - I- .x-a- OI.D..x.“x*.lx..l.-x..l*O.101 Cl10IrcRIDIrr    1011xIexr
                                                          i 11011x.   Y .x1.L         ?




       If NO, which medication(s) and questions(s) were not identified? (Use numbers from the
       Medication Summarv Sheet form to identify.) [ #reflects medication & reflects column
       number]

       #          Q-’       Comment

       #          Q-’       Comment

       #          Q -’      Comment

       #          Q -’      Comment

REFER TO IHAS PHYSICIAN FOR CERTIFICATION.                     m       if you feel necessary to confirm
your findings.

2. 	   Did the consultant/pharmacist for the nursing home relay the concerns to the appropriate
       medical personnel?”
       -     YES-       NO

       If NO, which medication(s) and question(s) did they not relay (use numbers from the
       Medication Summary Sheet form to identify. [#reflects medication & Q reflects column
       number]

       #      Q          7Comment
       #      Q          7Comment
       #      Q.-w, Comment
       #      Q-7         Comment

REFER TO IHAS PHYSICIAN FOR DOCUMENTATION.                         m      if you feel necessary to
confirm your findings.

3. 	   Was there follow-up action taken to correct the concerns of the nursing home’s consultant
       pharmacists?
       - YES-       NO-    NA

4.     Was the action appropriate to correct the concerns you identified?
       - YES- NO           NA


       If NO, what should have been done (that wasn’t)?
                               Drug Use by Texas Nursing Home Patients
                                    M.D. Referral/Decision Form


Patient Name:                                                   Referral Date--- /   /

Patient Sample Number:

Medicare Number:


REASONS FOR REFERRAL:

1. Pharmacist questions the following numbered items on the Medication Summary Sheet form:
     [#reflects me#dicat$ & Q#reflcts col;mn rmber]
     #-- Q         --           --         --         #Q--          #Q
                                                                     --
2. Incomplete File

3. Pharmacist unfamiliar with a particular medication

4. Other



Pharmacist Requesting Referral
                            Print Name



                                   TO BE COMPLETED BY M.D.
                                         (M.D. Decision)

                     Agree with IHAS Pharmacist’s Determination

                     Disagree with IHAS Pharmacist’s Determination


(Note: If the MD agrees or disagrees only in part, s/he must be specific as to each question raised
by the pharmacist above).

     Reason(s) for Disagree




     M.D. Comments




     Print M.D. Name                                                         M .D . Signature

     Date Review Completed ---      I    /         Amount of time for review by
                                                                                            (Minut$*




                                                        C-8 

                             APPENDIX                     D


             Departmental Comments About Inspection Draft Reports




DATE:           SEP 2 3 1997

TO: 	        June Gibbs Brown
             InspectorGeneral

FROM: 	      Nancy-Am Min DeParle N         &
             Deputy Administrator

SUBJEXT: 	 Office of Inspector General (OK?) Draft Report: “Prescription Drug Use in
             Nursing Facilities: An IntroductionBasedon Texas,” (OEI-06-96-00080)

We reviewedthe above-referencedreport that describesthe extent and appropriatenessof
drug use by Medicare and Medicaid residents of Texas r~ursing homes.

Paymentsfor prescription drugs representa largeportion of Medicaid’sexpendituresfor
nursing homes. In fiscal year 1995, Medicaid payments for prescriptiondrugsreached
$9.8billion. Medicaidprovided servicesfor 1.7million nursinghome residentsiu the
sameyear. Prescriptiondrug costs are estimatedto rangefrom $600to $1000 per
resident. This implies that between$1 billion and $1.7billion of those paymentswent
for prescription drugsin nursing facilities. Additionally,severalrecent studies suggest
that the use of inappropriate or contraindicateddrugsis a contributingfactor to the high
health Carecosts in the elderly population.

To assessthe extent of prescription druguse by dually-eligibleresidents, OIG obtained
Medicaid data for nursing home r&dents in Texas for calendar years 1992-94 and the
first 6 months of 1995. This data collection and extractioneffort was a part of OK’s
joint Texas DatabaseProject.

The Health Care Financing Administration(HCF’A)concurswith all of OIG’s
recommendations, Our detailed commentsare as follows:

OIG Recowdation         1

HCFA should continue to monitor and encouragereductioniu the use of contraindk~ed
prescription drugs in the elderly population.



                                          D-l
HCFA ResDonse

 We concur. This cambe accomplished at the state level However, states are not required
 to ixIude nursing facility (NF) residents in the automated prospective drug utilization
review (DUR) programs unless the NF is not in compliance with drug regimen review
requirements specified in 42 CFR 483.60. This regulation, and the statute at
section 1927(g)(l)(D) of the Social Security Act, preclude any Federal action to require
DUR for drugs dispensed by NFs that are in compliance with Federal requirements. The
requirements specify that states are not required to ‘perform additional drug use reviews
with respect to drugs dispensed to residents of nursing facilities which are in compliance
with drug regimen review procedures , , t , ” HCFA will continue to monitor data from
states that included this population in the automated prospective DUR programs.

At the facility level, state and Federal surveyors, consultant pharmacists employed as a
requirement of the Omnibus Budget Reconciliation Act of 1987,and physicians should
be reminded of the dangers associated with these drugs and directed to continue to
actively pursue a reduction in their use.

Most state Medicaid agencies distribute newsletters that relate concerns regarding drug
problems, such as drug contraindications in the elderly population, to pharmacists and
physicians in the state. Also, information sharing among state Medicaid agencies in
forums such as the annual DWRsymposium keeps state and Federal surveyors, consultant
pharmacists, and physicians abreast of the dangers associated with cmtraindicatedtigs
andthe elderly,

HCFAagreesthat similaranalysis of data from more states should be undertaken to
further assess the extent of continued use of contraindicated drugs. HCFA will ~~~tifm~
to act as a clearinghouse by collecting data reported by states in the IXJR aunual reports
on this subject, and disseminating the information to f&lit&e data sharing among slates.
IIIaddition,we encourage states that have included NF residents in their DUR prognuns
to establish relationships with local colleges of pharmacy that may be interestedin
assessing the extent of the continued use of contraindicated drugs in the elderly
population.

OIG Recommendation 2

HCFA and others should be aware of the significant increases in tie number of claims,
as well as the rapidly escalating costs for certain types of drugs (especially
ga~troinmid,      psychotherapeutic, cardiac, cwdiovascular, and anti-infectives)used in
le.




                                           D-2 

HCFA Response

We concur. HCFA is aware of the significant increases iu the number of claims, and the
escalating costs for certain drugs used in NFs in those states that report such information
in DUR annual repom. HCFA will play a more active role in making state Medicaid
agencies aware of trends in this area via the HCFA DUR Newsletter, scheduled for
quarterly publication. The newsletter will share information we receive regarding the
increase in the use of these drugs in NFs and other information refevant to DUR. We will
strongly encourage states to share such information with consultant pharmacists,
physicians, and all providers responsible for ensuring quality care in NY&.

In addition, HCFA would like OIG to report the extent of possible cost satigs, whether
they come km cheaper alternative drugs, or from the fact that drugs may not be
necessary. HCFA would like to know whether the safer and more effective alternatives
cost less than those drugs presently used.

PIG Recommendation 3

Further study should be undertaken, examining data about resident conditions, types of
specialized care, and other facility-speciSc characteristics, along with drug expenditure
and usage data, to better understand the factors contributing to the differences between
NFs in the costs of prescription drugs used by residents.

HCFA Response

We concur. Anther study in this area should be undertaken, and HCFA wonld like to
solicit the help of organizations such as the Agency for Health Care Policy and Research
to further examine this issue.




                                              D-3 

                 OCT 1 3 1997
TO: 	         June Gibbs Brown
              Inspector General

FROM: 	       Nancy-Ann Min DeParIe        r\) fl   D
              Deputy Administrator

SUBJECT: 	 Office of inspector General (OIG) Draft Report: “Prescription Drug Use in
           Nursing Facilities: An Inside View by Consultant Pharmacists,”
           (OEI-06-96-00081)

We reviewed the above-referenced report that describes consultant pharmacists’ concerns
about drug usage in nursing homes and their perceptions of their responsibilities for
medication reviews for nursing home residents.

The Omnibus Budget Reconciliation Act of 1987and subsequent regulations define
certain limibtions related to drug therapy, Among these, (1) patients must not receive
unnecessary medications; (2) patients cannot be prescribed antipsychotic drugs unless
they are appropriate for a specific patient’s condition; and (3) prescribed a&psychotic
drugs will receive gradual dose reductions or behavioral programming in an effort to
discontinue the drugs (unless clinically contraindicated). Also, nursing homes must have
no sign&-ant medication error rates and patients should have no significant medication
errors. Oversight in the nursing homes for these requirements is performed by consultant
pharmacists hired to perform a monthly medication review for each resident. As such,
these pharmacists are a valuable source of information. To take advantage of their
experience, OIG surveyed a StatisticaJlyvalid sample of pharmacists drawn from a
stratified random sample of the 17,000nursing facilities. The report represents the results
of an indepth, structured mail survey of these consultant pharmacists.

The OIG report suggests that the Health Care Financing Administration (HCFA) work.
with the states and other responsible entities to impr6ve the effectiveness of medication
review for patients in nursing homes. HCFA is o&&g the following comments to
OIG’s suggestions for improvement:

Informing and Jhcumentinp

HCFA will explore ways to enhance each of these suggestions to improve communication
between the pharmacist and physician, but we must point out that facilities have always
been required to maintain records of the pharmacist review in the facility. The January
1982 State Operations Manual transmittal which first introduced the Appendix N




                                            D-4
 guidelines stated, “A record of drug reviews must be maintained in the facility in order to
 demonstrate that such reviews have been performed.”

The purpose of drug regimen review was to introduce current drug information into the
facility and to share that information. relative to specific patients, with the medical and
nursing staffs. HCFA never expected that some pharmacists would keep this information
to themselves,   as is apparently   the case in the example OIG described   on page 16 in
which many facilities had trouble providing drug regimen review records because the
pharmacist “had them in a different location.”

State and Federal Survey and Certification

We have been endeavoring to review and update Appendix N for some time and will
continue to do so in the future. We have devoted considerable time and effort (including
time in obtaining physician and pharmacist input) to guidelines for psychopharmacologic
medications for Appendix P (applies to long texmcare (LTC) facilities), and to guidelines
for intermediate care facilities for the mentally retarded.

Since Appendix N was adopted, Medicare has changed its policy for payment of
laboratory tests (i.e., no more orders for tests, especially multiple tests, without good
clinical indications). This means any laboratory tests referred to in the revision will have
to address a multitude of “clinical justified conditions,” instead of time periods (in the
current Appendix N) which are less difficult to define and to reach consensus.

OIG suggests that HCFA should ensure that consult&t pharmacists routineIy conduct
drug regimen reviews according to Appendix N pro&c&. Appendix N comes nowhere
near the scope of the pharmacology that potentially occurs in LTC facilities. Appendix N
was developed to give surveyors enough information to make a reasonable judgment as to
whether the pharmacist had conducted a reasonably completejob of drug regimen review.
Its purpose was never intended for use by pharmacists. Unfortunately, it has been
per,ceivedby some pharmacists as the entire drug regimen ,reviewrequirement.




                                                                                               -



                                                  D-5
DATE:          OCT I   4 199-i’

TO:           June Gibbs Brown
              Iuspector General

FROM:         Nancy-Ann Mm DeParle 0           w m
              Deputy Administrator

SUBJECT: Office of Inspector General (OK?)DraIt Report: “Prescription Drug Use m
         Nursing Facilities: A Pharmaceutical Review of Selected Texas Patients,”
         (OEI-06-96-00082)

We reviewed the above-referenced report that examines the extent and appropriateness of
pharmaceutical use by selected Texas nursing home (NH) residents and describes
pharmacists concerns about drug use. This is the third in a series of OIG reports and
underscores the need to strengthen medication reviews and improve medication
prescribing, administration, and monitoring practices in NHs.

The Omnibus Budget Reconciliation Act of 1987(OBRA 1987)and subsequent
regulations define certain limitations related to drug therapy. Among these are:
1) patients must not receive unnecessary medications; 2) patients cannot be prescribed
antipsychotic drugs unless they are appropriate for a specific patient condition; 3) patients
prescribed antipsychotic drugs will receive gradual dose reductions or behavioral
programming in an effort to discontinue the drugs (unless clinically contraindicated); and
4) the NH must have no significant medication error rates. NHs often engage conSultant
pharmacists to help them comply with these requirements.

The Health Care Financing Administration (HCFA)concurs with the intent of the report
recommendations. Our detailed comments are:

PIG. Recommendation #l

HCFA should continue to monitor and encourage reduction in the use of comaindic~ed
prescription drugs in the elderly NH population.




                                             D-6 

HCFA Resoonse

We concur. This recommendation refers to a paper by Beers. M.H.. et al., entitled
“Explicit Criteria for Determining Inappropriate Medication Use in Nursing Home
Residents,” and published in the Archive of Internal Medicine, September 1991.
Adoption of these criteria as Medicare gu.ideIineshas been proposed at the staff level in
HCFA.

OIG Recommendation #2

HCFA should identif) and analyze reasons for the rapid escalation in costs and claims for
certain types of drugs used in NHs (i.e., gastrointestinal, psychotherapeutic, cardiac,
cardiovascular, and anti-infectives).

HCFA Resuonse

We concur. We must detexminethe potential source of this escalation. One potential
reason for increased costs is the decrease in the use of antipsychotic drugs and the
increase in the use of antidepressant drugs that are used in long-tetm care facilities.
HCFA has been encouraging the diagnosis and treatment of depression and the more
conservative use of antipsychotic drugs since the early 1990s. Since most autipsychotic
drugs are off-patent and generically available (thus less expensive) and the
antidepressants being used are not, cost escalations could be occurring because of these
factors.

OIG Recommendation #3

HCFA should strengthen the effectiveness and impact of medication reviews conducted
by consultant pharmacists in NHs.

HCFA Response

We partially concur. Pharmacists have been required to conduct drug regimen reviews in
Nl-ls since 1974. Appendix N was primarily written for surveyors, but it also serves the
purpose of defining, for pharmacists, what,is involved in a drug regimen review.
Appendix N was updated in March of 1985 and again in SepteIubw 1990. Appendix P,
which contains extensive psychopharmacological drug therapy guidelines, was written in




                                             D-7 

September 1989 as part of the OBRA 1987initiatives. These guidelines were updated in
April of 1992, and again in June of 1995. In short, consultant pharmacists have extensive
government guidance as to what is expected of the drug regimen review.

We would be willing to more vigorously pursue enforcement of positive resident
“outcomes” which would require the pharmacist’s input in achieving. For example: falls,
pressure sores, and urimuy incontinence can be exacerbated by psychoparmacological,
cardiovascular, and other drug therapy. The pharmacist can be helpful to the nurse and
physician in mini&&g risk to the resident, which would be a better use of resources
than investing time in finther Federal regulation of the drug regimen review.

OIG Recommendation #4

HCFA should require NHs to provide ongoing, in-service training for personal care staff
(nurse aides) on how to recognize behavioral signals and symptoms of contraindications,
adverse reactions, or inappropriate responses to medications.

HCFA ResDonse

We concur. However, we believe our current regulations are adequate to cover this type
of course material. It is important for care givers to recognize these behavioral signs. 42
CFR section 483.152@)(2)(i) states that the ctic@rn of the nurse aide training program
must include taking and recording vital signs, and 42 CFR
section 483.152(b)(Z)(iv)requires the training program to include recognizing abnormal
changes in body functioning and the importance of reporting such changes to a
supervisor. While these requirements do not relate specifUly to possible
contrain&cation~, adverse reactions, or inappropriate responses to medications, we do not
believe the nurse aides need to be able to identify the probable causes for the changes
they obsm. Rather, they need to recognize the changes,and report them, promptly, to
someone who is trained to intervene clinicaIly. Therefore, we do not believe any related
changes to our regulatim or accompanying guidelines are necessary.

OIG Recommendation #5

HCFA should explore the feasibility of requiring NFs to maintain all records pertinent to
a patient’s care in one location in the NF.




                                             D-8 

 HCFA Resoonse

 We concur and will explore the feasibility of the above recommendation.

 Technical Comments

Page 12 - We note that of the problems and concerns found by the independent
pharmacists (called contract pharmacists in the report), 20 percent were not identified by
the facility’s contract pharmacist. Among the contract pharmacists’ concerns were the
follow-ing:

       0      lack of monitoring (drug therapy) for efficacy
       0      drugs which were clearly inappropriate for use by elderly individuals
       0      inappropriate method of administration, i.e., crushing of sustained action
              drugs
       0     medications inappropriate for diagnosis
       0     medications being received on schedule when a duplicate order was
             available
             (Note: Duplicate dispensing may be one reason for high drug expenditures
             in Texas.)
       0     some medications not having orders
       0     providing medications for which the patient had allergies
       0     medication being ordered for dosages’otherthan those the patient received
             (Note: These are probably medication errors.)

Also, we are interested in two questions in the context of the above findings: To what
degree has the Texas state survey agency identified these problems in the last regular
survey, and if the Texas state agency did identify these problems, what remedy did it
prescribe?




                                          D-9
       DEPARTMENT OF HEALTH           & HUMAN SERVICES                             Office of the Secretary



                                                                                  Washington.    D.C. 20201




 TO:            June Giblk?Brown
                 Inspector General

FROM:           Da\id F. Garrison Mw
                Principal Deputy Assistant Secret&$
                 for Planning and Evaluation

SUBJECT: 	     OIG Draft Report: “Prescription Drug Use in Nursing Facilities: An Inside View
               By Consultant Pharmacists” --- Concur with Comment

We have reviewed the draft OIG report entitled “Prescription Drug Use in Nursing Facilities: An
Inside View By Consultant Pharmacists” and concur with the following comments on this report.

I appreciate the OIG’s findings that some pharmacists are having difficulty carrying out their
responsibilities to assure accurate and adequate administration of prescription drugs in nursing
facilities. Heartening, however, is the information included in this report that pharmacists
contracted by the OIG for this study report that nursing homes are complying ‘withthe required
medication reviews for nursing home residents. Particularly encouraging were the cooperative
relationships that many pharmacists reported having with physicians, nurses, and administrators
in these facilities. I believe that the information presented in this report underscores the
effectiveness of the pharmacists’ reviews -- precisely the result sought by enacting the OBRA
‘87 provisions. As the IG notes, there is still room for improvement.

 Executive Surnma~~, The body of the report correctly highlights that it isphysician~ who
 determine what is appropriate drug use for nursing home patients. However, the Executive
 Summary o+y references this critical role when recommending that pharmacists inform
 physicians of their medication concerns. We recommend the Executive Summary emphasize
 that prescribing and monitoring medications is the responsibility of the nursing home resident’s
 physician and that many of the problems and concerns raised in this report are not the result of
                                                         .d
.poor nursing home practices.

Pecommendations. Among the “opportunities for improvement” suggested by the OIG are the
recommendations that Appendix N of the Survey and Certification protocol be reviewed and
updated, and a list of inappropriate drugs for the elderly be developed. We agree. We
understand that there are several provisions in Appendix N that are no longer current and that
recent advances in drug therapy for the elderly have identified several drugs that should never (or
with rare exception) be used by the elderly. We recommend HCFA implement these
recommendations.




                                               D - 10 

 Yagb 2 - Jute Gibbs Brown 


Another recommendation advanced by the OIG is, “[a]s part of the on-going training of personal 

care staff (nurse aides), pharmacists should provide in-service training on the recognition of 

signals and possible symptoms of contraindications, adverse reactions, or inappropriate responses 

to medications.” We believe that such training would be highly desirable. We recommend 

HCFA consider modifying the nurse aide training program to include training on recognizing 

symptoms of contraindications, adverse reactions, and inappropriate responses to medications. 

In addition, we recommend HCFA explore whether there are cost-effective alternatives to 

pharmacists providing this training. 


fiand                          e     On a more technical note, we recommend the report clarify that 

the OBRA ‘87 legislative changes and subsequent regulations apply to Medicare skilled nursing 

facilities as well as Medicaid NFs. Similarly, we note the report indicates that “nursing 

facilities” were the facilities that were the subject of the pharmacists’ responses (as opposed to 

Medicare SNFs or dually-certified facilities). In addition, the findings and recommendations are 

described in terms of “nursing homes” and “nursing facilities.” We recommend clarifying the 

types of facilities that were the subject of this report. 


As written, the report incorrectly implies that the OBRA ‘90 drug provisions are applicable to 

nursing homes. We recommend that the scope of these provisions be clarified. Alternatively, 

this discussion could be eliminated from the report. 


The report states, “ . , . from l-6 percent of the consultant pharmacists say these four drug 

categories are inappropriately prescribed by most or all physicians . . . ” (p. 11). This statement 

is inconsistent with the percentages reflected in Table 2. We recommend the table and the 

statement be reconciled. 


Finally, we recommend the OIG identify any next steps that should be pursued as a result of this 

study. For example, your office may want to consider administering a similar questionnaire to 

nursing home physicians and nurses to obtain their perspectives on the effectiveness of 

pharmacists’ drug regimen reviews. In addition, you may wish to recommend additional 

research that HCFA or ASPE should consider to fkthef our understanding in this area. 





                                              D- 11 

                                               APPENDIX                           E

        Comments by External Organizations                            About Inspection Draft Reports




AMERICAN 6OCIElY OF 	CONSULTANT             PHARMKISTS
                     -




                     September 29,1997 


                    June Gibbs Brown 

                    Inspector Genera1 

                    Office of Inspector General 

                    Department of Health and Human                   Services 

                    Washington, DC 20201 


                    RE:               Draft reports - prescription    drug use in nursing homes

          Dear Ms. Brown:

          The American Society of Consultant Pharmacists is pleased to comment on
          the draft inspection reports related to prescription drug use in nursing homes.
          ASCP is the national professional association representing more than 6,300
          pharmacists who provide medication distribution and consultant services to
          manage and improve drug therapy outcomes of individuals residing in long-
          term care environments.       ASCP members serve the full spectrum of long
          term care settings, including nursing homes, subacute care and assisted living
          facilities, psychiatric hospitals, facilities for the mentally retarded, correctional
          institutions, hospice, and home, care.

          We have reviewed each of the three draft reports and our comments               are
          shown below.


          ASCPs   Overall Observations

          1.       Medications that are generally considered inappropriate for use in the 

          elderly are referred to in the draft reporta as “contraindicated.” However, this 

          is not the correct term to use for these medications~ In some specific 

          situations, the use of one of these medications in the elderly could be 

          justified. ASCP suggests using the term “potentially inappropriate” instead of 

          “contraindicated.” 


          2. 	    Parts 1 and 3 of this three part report focus on medication use and 

          consultant pharmacy practice in Texas nursing facilities. It should be noted 

          that Texas may not be representative of the rest of the nation with regard to 

          long-term care pharmacy practice. One significant difference is that Texas has 


                     -
                     ljpl   Duke c&eel
                     Al-,           VA 99314-3563
                     703/739-1300 

                     7034739-1391fax 

                     inlo8axp.can

                     b...- II... .,,*.--e   -n-r 





                                                              E-l
    _(   .


              June Gibbs   Brown

I             Sept.
              ragI-
                      20. 1997
                      2




             strongly emphasized the rights of indlviduai residents to choose their own
             pharmacy provider, over the rights of the nursing facility. As a result, it is
             common for Texas nursing facilities to be served by five, ten or more
             pharmacy providers, each with only a few patients.

             In this environment,      where pharmacy      providers serve only a few nursing 

             facility patients, it is difficult for dispensing pharmacists   to have expertise in 

             geriatric pharmacotherapy         and knowledge of nursing facility regulations.    As 

             a result, the task of the consultant pharmacist is made more difficult.        In states 

             where nursing facilities are served by one or two primary pharmacy 

             providers, many medication problems are detected and corrected at the time 

             of dispensing. This is referred to as prospective drug regimen review, and is 

             an important complement to the retrospective drug regimen review 

             performed by the consultant pharmacist. 


             ASCP recognizes the need for expanded knowledge of geriatric 

             pharmacotherapy by both physicians and pharmacists. In order to recognize 

             those pharmacists who have developed this expertise, and to encourage other 

             pharmacists to develop expertise, ASCP created an independent commission 

             to certify pharmacists in geriatric pharmacy practice. The first certification 

             examination in geriatric pharmacy practice will be administered by the 

             Commission for Certification in Geriatric Pharmacy on November 12,1997. 


             ASCP has also developed a Statement on Pharmaceutical Care, which is 

             designed to assist our members in improving drug therapy outcomes for their 

             patients. 



             An Introduction       Based on Texas 


             3.        ASCP’s Overall Observations

             The first report combines information about appropriateness of drug use (e.g.,
             medicines not generally considered appropriate for use in the elderly) and
             cost of medicines for nursing home residents. These are two separate issues.
             ASCP suggests presenting this information in two separate sections .to
             highlight the difference.

             Just because the cost of a particular drug category is increasing does not mean
             that medication use in this category is inappropriate.    Newer (and more
             expensive) medications often have fewer side effects, especially in the frail
             elderly, and are more effective than older medications. For example, all the
             medications on the list of twenty drugs not considered appropriate for use in




                                                         E-2
 June   GibbsBrown
 Sept   29, 1997
 Pap    3




the elderly are multisource  generic products. As patients are switched off
these products, they are often placed on newer, more expensive medications.

In the category  of antidepressants, amitriptyline is an older tricyclic
antidepressant   with many adverse effects in the elderly, such as urinary
retention, constipation, and dry mouth.      Many nursing home residents have
been placed on newer agents such as fluoxetine (Prozac) or sertraline (Zoloft).
These newer agents are better tolerated by the elderly, but are more expensive.

In the antipsychotic drug category, residents are being switched from older
agents such as haloperidol  (Haldol) and thioridazine (Mellarii) to newer
agents such as risperidone (Risperdal) and olanzapine (Zyprexa). These
newer agents are less ljkeiy to produce serious side effects such as tarclive
dyskinesia and extrapyramida1 symptoms.

In the cardiovascular category, there is increasing use of ACE inhibitors, such
as enaIapril (Vasotec) and iisinopril (Zestril), due to recent evidence of benefit
from these agents in treatment of heart failure and prevention of renal
dysfunction in diabetic patients.

4.          Page i, Findings, third bullet

“In 7994 almost 20 vercent, more than 16,600, of Texas’ dually-entitled
beneficiaries received at Ieast one of twenty drugs considered by medical
experts to be inappropriate for elderly use due to side effects or other
consequences.   U

As noted in our introductory comments, prospective drug regimen review
can be an effective means of preventing or correcting drug-related problems.
As an example of this, one large long-term care pharmacy provider collected
data in 1997 on 12,000 nursing facility residents across numerous states and
found that only 12.9% of residents were receiving a medication on the list of
twenty drugs identified in the OIG report as not appropriate for the elderly.
Of these medication orders, 67% were for propoxyphene.

Increasingly, long-term care pharmacy providers are using tools such as
formularies, or preferred drug lists, and therapeutic interchange as part of the
prospective drug regimen review process. When properly applied, these tools
can enhance efforts to improve drug therapy outcomes in nursing facility
residents. Please see the attached Ascp Statement on Formula&s in
Nursing Facilities, ASCP Guidelines for the Development of Formulary
Systems in Nursing Facilities, and ASCP Guidelines for Implementing
Therapeutic Interchange in Long-Term Care.




                                             E-3
 Jme Gibbs Bmwm
 Sept.29, 1907
 Page 4




5.         Page iii, third   recommendation

 “Further stltdy should be rtnderfaken, exmining      data about resident
condifions, types of speclallzed care and other facility-specific characteristics
along with drlcg expenditure and usage data, tu better understand tfre factors
contributing to the wide diff erences between nming facilities in the costs of
prescription drugs med by residents. n

ASCP strongly agrees with this recommendation.           Because of the planned 

impIementation     of the Prospective   Payment System (PPS) for nursing 

facilities in 1998, more research is essential to explore the reasons for these 

variations in costs. ASCP suggests including this recommendation            in the 

comprehensive     list of recommendations     at the conclusion  of the third report. 



An Inside      View by Consultant         Pharmacists

6.         Page ii, “Shortcomings        of Medication    Reviews”

ASCP suggests changing the title of this section to “Obstacles to Adequate
Medication    Reviews.”    The current title implies that inadequate    reviews are
the fault of the consultant pharmacist.     In fact, the material presented   in this
section is primarily focused on factors that are beyond the control of the
consultant   pharmacist.

7.         Page ii, fifth paragraph

  “Phnrmacists conduct some reviews without consulting    important medical
records and without having patients diagnoses or laboratory reporfs.”

The explanatory   information makes clear that this information is frequently
unavailable for review. ASCP suggests changing this wording to
“Pharmacists conduct some reviews without access to important medical
records,     including   patients’    diagnoses    and laboratory    reports.”

8.         Page ii, sixth paragraph

“‘illore than half of the reviews do not consider             the resident’s     assessment   (65
percent) or pkm of care (56 percent).”

ASCP recommends that consultant pharmacists participate in the assessment
and care planning process, and use these documents to facilitate the drug




                                                  E-4
 June Gibbs Brown
 Sept. 29,199:
 Page 5




 regimen review.   Please see the attached ASCP Statement on the Role of the
 Consultant  Pharmacist  in Resident Assessment and Care Pianning.

 9.     Page iii, item 3 under        “Informing     and Documenting”

“Explore      the feasibility   of requiring nursing facilities to maintain all records
pertinent     to II patient’s   care in one location in the nursrng juciiity.”

AS0 agrees with this suggestion.     However, there may be a few appropriate 

exceptions to this requirement.   For example, the current Medication 

Administration    Records (MARS) for all patients are commonly kept in a 

notebook with the medication cart for convenience in distributing 

medications to the residents. ASCP suggests that the OIG report include a list 

of pertinent patient records that should be kept in one location in the facility. 


10.    Page iii, “State and Federal Survey and Certification,”          number 1

“To enhance bofh surveys (Federal or State) of medication usage and monthly
drug reginzen reviews by consultant pharmacists, HCFA should review and
update Appendix N of the Survy/Certificntion    protocol and any related
medication policy and procedures.”

ASCP agrees that Appendix N is obsolete, and we suggest that Appendix N be
deleted. In its present form, these survey indicators are actually
counterproductive.    What often happens is that surveyors, and even some
consultant pharmacists, become narrowly focused on these indicators and
miss other significant findings that would be more important.

A!XP is planning to coordinate development     of a new set of indicators for
conducting drug rqimen reviews. These indicators will include the list of
twenty medications considered inappropriate for use in the elderly. We will
begin with a literature search and seek input and consensus from a broad
group of consultant pharmacists, geriatric pharmacotherapists,   physicians and
others. These indicatvrs will be updated periodically, and can be used by
consultant pharmacists, surveyors, and others to evaluate appropriateness of
drug therapy. ASCP will forward a copy of our new drug regimen revjew
indicators to HCFA upon completion, no later than July, 1998.

11.    Page iii, “Training       of Aides”

“As part
pharmacists     should    provide in-service training on the recognition of signals




                                                   E-5
 JuneGibbsBrown
 Sept. 29, 1997
 Page6


and possible      symptoms     of contraindicatrons,      adverse   reactions,   01
Inappropriate      ;esponses    to medications.”

Nurse aides are currently required to have a minimum of welve hours of 

inservice training per year, according tv tag F497 of the interpretive 

guidelines. ASCP agrees with the recommendation        for specific training for 

nurse aides regarding identification  of medication side effects. ASCI’ suggesb 

that a requirement for four hours per year (or one hour per quarter) of 

training related to detection of medication            side effects be recommended    for 

nurse aides. 


12     Page 17, fifth paragraph

“If is inferesfing to note that fully 91 percent of the cons&ant pharmacists
believe reusing medicafions would yield Federal and State savings (the
primary exceptions are controlled drugs having Federal or State regulations
that require destruction or medications in liquid form or vials contaminated
by prior use). Even though some pkarmacisfs indicated the savings may be
offsef by many potential administrative costs, 54 percent of the consuitanf
pharmacists say unused, properly packaged medications could be returned to
the vendor pharmacy to yedispense for use by others.”

The issue of return and reuse of medications by nursing facilities is complex.
ASCP has developed a position statement which explores the various facets of
this issue. Please see the attached ASCP Statement on Return and Reuse of
Medications in Long-Term Care Facilities.

A Pharmaceutical      Review of Selected Texas Patients

13.    Page ii, first paragraph

“22 percent of patients were receiving, without a prescription in their records,
drugs fir which prescriptions are generally required.    Further, 23 percent of
the patients were prescribed medications for which the records showed no
orders or receipts to indicate tke patient actually received the medication.”

This is a high proportion of such orders, and these results are inconsistent
with the findings in Part II of this report, which showed that 83% of
consultant pharmacists in the nationa survey rarely or never found a
medication order not on the MAR. The remainder of the respondents found
this problem “sometimes.” Ninety-three percent of consultant pharmacists
rarely or never find a medication listed on the MAR without an order.




                                             E-6
 June Gibbs Brown
 Sept 29, 1997
 Page 7




 14.    Page ii, last paragraph

 “The contract pharmacists idenfijed medicafiotz problems            or concerns for 20
percent of the pntienfs which hud not been identified by            the nursrng  home
consultant   pharmacists’ reviews.”

It would be more accurate to say “The contract pharmacists         identified
medication    problems or concerns in 20 percent of the patients where there
was no documentation      that these problems had been identified by the
nursing home consultant pharmacists’        reviews.”   Elsewhere in the OIG
report, it is noted that consultant pharmacists     in Texas frequently provide
some of their findings to the facility in verbal reports or in documents      that
are not a part of their official report.

15.    Page iii, “Recommendations”

In the final list of recommendations,      please   include   the third
recommendation      from the first report:

“Further study should be undertaken, examining data about resident
conditions, types of specialized care and other facility-specific characteristics
along with drug expenditure and usage data, to better undeqtand        the factors
contributing to the wide differences between nursing facilities in the costs of
prescription drugs used by residents.”

16.    Page iii, “Recommendations”

ASCP suggests adding a recommendation       that HCFA require consultant
pharmacist    recommendations to be made a part of the resident’s  clinical
record.   This recommendation  is supported   by findings from the national
survey of consultant pharmacists (see Table 4 and discussion, page 16 of full
report). Consultant pharmacists document their findings and
recommendations     in the clinical record only about one-third of the time.
This lack of documentation in the clinical record decreases the ability of the
consultant pharmacist to cummunicate significant information to the
interdisciplinary team and nursing facility staff.

ASCP has long suppotied the documentation of wnsultant pharmacist
findings and recommendations   in the clinical rec&cl. See the attached ASCP
Guidelines for Documenting   Consultant Pharmacists’ Activities in the
Medical Record.




                                            E-7
June Gibbs Eravm
Sept. 20, 1997
Page 8




The American Society of Consultant    Pharmacists    is pleased to provide these
comments on the draft report and we hope that these comments will be
useful in your review and preparation   of the final version of this report. If
you have any questions about our comments,        or if additional information  is
needed, please contact Thomas Clark, ASCP Director of Professional Affairs, at
703739-1316, x123.


          Sincerely,




          R. Timothy Webster
          Executive Director

          enc.:        ASCP Statement   on Pharmaceutical   Care

                       ASCP Statement on Formularies    in Nursing Facilities

                       ASCP Guidelines for the Development     of Formulary
                       Systems in Nursing Facilities

                       ASCP Guidelines for Implementing     Therapeutic
                       Interchange in Long-Term Care

                       ASCP Statement on the Role of the Consultant
                       Pharmacist in Resident Assessment and Care Planning

                       ASCP Statement on Return and Reuse of Medications        in
                       Long-Term Care Facilities

                       A!XP Guidelines for Documenting Consultant
                       Pharmacists’ Activities in the Medical Record




                                        E-8
                     National          Association             of Boards               of   Pharrnacyb
                                   700 BUSSP H’ghway          .    ParkR:dge     /L 60066
                                     Tel: 847/69&S-727         *   Fax b-47/698-0124




October     1997



June Gibbs Brown 

Inspector General 

Department of Health &Human Services 

Office of Inspector General 

Washington. DC 2020 1 


Dear Ms. Brown:

Thank you for the opportunity to comment on rhe draft xqection       reports
describing,the results of the inspections of the issues related to prescription
chug use in nursing homes.

We concur with the general findings of the reports calling for strengthening
medication reviews, improving medication prescribing, administration, and
monitoring practices in nursing homes. We strongly support increased use of
the pharmacist in the medication retiew and patient care processes and
access to critical patient data.

                   rther assistance,     please do not hesitate to contact me.




&en      A. C&zone, MS, FtPh 

becuttve Director/Secretary                                   f

                                                         .!

CClmwg

cc     NABP Executive Committee 

       Fxecutive Officers - State Bcurds        of   Pharmacy 





                                          E-9
fkmxkan                HCSMIbrekkssochtiotl 	 I:.;                  L sweet, NW. Washington,   DC 20005 4014
                                                               FAX: 202.842-3860




          October   2. 1997



      June        Brown 

      Inspector 

      Department of       and Human 

      330 Independence Avenue, S. W., Room 5657 

      Washington, DC 20201 


      Dear Ms. Gibbs: 


      The American Health Care Association (AHCA) is pleased to respond to your request for 

      review and submission of comments on the draft inspection reports regarding issues 

      related to prescription drug use in nursing facilities. Our comments are incorporated into 

      this letter. 


      We have reviewed all three reports! An Inside J&w by Consultant Pharmacists; An
      Introduction Based on Texas; and A Pharmaceutical Review ofSelecred Texas Putients.
      Although our comments rererence primarily the national document, An            View by
                   Pharmacists, they     applicable to        areas of    Texas-related drafts.
                Texas stale afliliate member, the Texas Health Care Association, has also
      reviewed the reports and provided comments to us. Those comments are incorporated
           our Icttcr.

           American Health          Association is a federation of 50 state health care
      organizations, together representing more than 11,000 non-profit and for-profit assisted
      living, nursing facility, and subacute care providers that care for one million elderly and
      disabled individuals nationally. To be Medicare and Medicaid certified, nursing facilities
      must be in substantial compliance with all requirements of participation at 42 CFR 483
      Subpart B, These requirementi include regulations governing unnecessary drugs,
      antipsychotic drugs, medication errors and pharmacy services, including those related to
      consultant pharmacists and drug regimen review.

      Our comments address four key areas. They are not necessarily all-inclusive but are
      provided to illustrate the problems we found in the dran document discussion and
      recommendations.




                                                 E-   10
pharmacists asked hrobd and sometimes vague questions. Nevertheless, on the basis
of responses to these broad questions, the Office of Inspector Gcncrnl Is drawing
specific conclusions and making extensive recommendaHoas.

� 	    Terms such as “concerns” and “inappropriate” are used in se\-eral significant areas of
      the text These are broad terms which need to be broken do\\n into specifics to limit
       variations in their interpretations. The concerns should be specifically described. For
      example, since inappropria/e can be over-use, under-use, wrong drug for condilion.
      or other factors, it should be specifically identified, and the percentage of occurrence
      of that descriptor provided. With more specific terms, the meaning of some of the
      findings would be clearer, and the relevance of some of the solu~io~~s to the rrported
      problems would be more apparent. To assist the reader in understanding the problems
      and recommendations, we also recommend that a copy of the survey instrument be
      included in the final report.

2. The reports raise valid concerns about physicians’ prescribing practices, lack of
knowledge or training regarding appropriate medications for the elderly, and
unresponsiveness    to consultant pharmacists’ recommendations. However, our
reviews found that several recommendations which are made in the drafts either do
not address these issues or they are targeted toward areas which will not solve the
problems. They also place the burden of correction on the nursing facility,
expecting facility’s administration or nursing staff to manage a process over which
they do not have complete control.

      Page i of the Executive Summary of the hide View draft contains this statement:
      “Pharmacists have serious concerns about prescribing practices for antipsychotics,
      anxiolytics, sedatives/hypnotics, antidepressants, and other drugs.”

      The opening paragraph on page two of the Inside View draft states: “It should be
      noted that regardless of any reported concerns by the consultant pharmacist, it is the
      physician’s legal responsibility to order medication changes, not the director of
      nursing.”

      Page 9 of the Inside View draft states: “Many of the consultant pharmacists (40
      percent) assess the extent of cooperation t?om residents’ personal physicians as only
      fair or poor. Consultant pharmacists arc disturbed thnt some physicians do not take
      their concems seriously or act promptly on their rccommcndations...” It goes on to
      state that 63 percent of respondents report that physicians rarely or only sometimes
      seriously consider their recommendations. Page 9 also states: “By contrast, 99
      percentof Iheconsultantpharmacistssay nursesseriouslyconsidertheir concerns
      mostto all the time.”

In spite of the above-noted statements, the draft recommendation which addresses these
issuesis directedat the nursing facility, as noted on page20 of the Iwide View: “State


                                                   2




                                              E-       11
and Federal survey and certificati.,n programs could Include process focused reviews of
pharmacists’ recommendations and subsequent actions by appropriate medical and
nursing personnel as part of their on-going suncys.” The AHCA belicvcs that this
recommendation would penalize nursing facilities for physicians’ prescribing practices
and lack of responsiveness to the consultant pharmacis(s recommendations, even if
facilities have attempted, without success, to “educate” the physician about fcdcral long
term care regulations. This recommendation also contradicts the Health Care Financing
Administration’s emphasis on resident “outcome orienled” survey procedures for nursing
facilities.

3. The reports contain internal inconsistencies. For example, the draft indicates
that consultant pharmacists’ responses to the survey show serious shortcomings in
the quality and thoroughness of the pharmacists’ drug regimen reviews. The draft
further states that pharmacists conduct some reviews without consulting important
medical records and without having patients’ diagnoses or laboratory reports.
Nevertheless, the consultant pharmacists responding to the OIG’s survey draw
conclusions about the “appropriateness” of residents’ medications.

� 	   Page ii of the draft Inside View contains these statements: “Pharmacists conduct
      some reviews without consulting important medica records and without having
      patients’ diagnoses or laboratory reports. Many pharmacists have no contact with
      patients or their families or with nurse aides in their conduct of drug regimen
      reviews.”

In spite of these significant findings, the draft emphasizes consultant pharmacists’
conclusions and concerns. These responses should raise questions to the reader about
how the pharmacists arrived at these conclusions without thorough knowledge of the
resident’ assessments, care plans, and the rationale For the use of a particular medication
or dosage. For example, the chart on page 12 of the draft illustrates pharmacists’
“concerns.” The reader should ask how the pharmacists would know about such issues as
overutilizatioa of drugs, use of antipsychotics without a diagnosis, or use of
contraindicated drugs for patients’ existing diagnosis or disease given their admissions
that they conduct their reviews without consulting important medical records or having
the rcsidcnts’ diagnoses.

4. The drafts report that consultrnt pharmacists bave serious concerns about the
USPof prescription drup in nunimgfacilitia, and the OIGsuggeststhat legislative
and regulatory iateutions related to the quality of these services are not being fully
realized. However, according to Halth Cart Finan&ng Administration data, the
rates of nursing facilities’ noncompliance with key requirements of participation
governing quality of care aspects of prescription drug use and the adminlstration of
pharmacy services, including those of consultant pharmacists, are not as high as the
reports suggest,




                                           E- 12
. 	 In the OIG survey, consuftan: phstmacists reporteti that, in general. nursing faciltties
     and consultant pharmacists are complying with the law and regulations related to
    medicafion reviews of nursing home residents. However, the “concerns” that
    consultant pharmacists repott in the OlG survey suggest that nursing facilities arc not
    complying with many other federal requirements rclatcd to prescriptton drug use. A
    review of the data resulting from inspections of nursing facilities’ compliance with
    these requirements does not support all of these concerns. For euamplc, page I2
    contains a chart which shows the percentage of consultant pharmacists who reported
    that they are “sometimes or often” concerned about: prolonged USCof sleeping
    medicines (67%); overutilizadon of drugs (62%): use of “as needed” drugs for too
    long (61%); use of antipsychotics without a diagnosis (45%); and use of
    contraindicated drugs for a patient’s existing diagnosis or disease (26%). The
    national rates of noncompliance cited at federal regulations related to these areas for
    10,692 surveys of nursing facilities between July, 1996 and April, 1997 were:

          � 	   42 CFR 48325(1)(l) -- Unnecessary drugs (in excessive dose; for excessive
                duration; without adequate indications for use; in the presence of adverse
                reactions; or a combination of the preceding) -- Noncompliance rate: 9.9
                percent.

          � 	   42 CFR 483.25(1)(2)(i) -- If antipsychotic drugs were not previously used,
                they are not used unless necessary to treat a specific diagnosed and
                documented condition -- Noncompliance rate: 1 2 percent.

         � 	    42 CFR 483.25(1)(2)(B) -- Residents who use antipsychotic drugs receive
                gradual dose reductions, behavioral interventions, unless clinically
                contraindicated -- Noncompliance rate: I .2 percent.

          � 	   42 CFR 483.25(m)(l) - The facility ensures that it is free of medication error
                rates of five percent or greater -- Noncompliance rate: 4.8

         � 	    42 CFR 483.25(m)(2) -- The facility ensures that residents are free of any
                significant medication errors -- Noncompliance rate: 2.3 percent

� 	   The facilities surveyed during the above-noted time period were found to have
      national compliance rates of 0.8, 1.8, and 1.2, respectively, for the federal
      requirements at 42 CFR 483.60, including those governing drug regimen review,
      reporting irregulanides to the attending physician and director of nursing, and acting
      on reports.

In addition, please note the following general comments.

� 	   The findiig that a 20 percent increase in drug costs has occurred in a short period of
      time may not be unusual. Most new and more effective products that have come on




                                              E- 13
     the market in the last IO year; are expensive. Their a\*erage cost is $ I .OO10 %1.50 per
     dose. If new, more effective drug.\ <ce now available, why should thry not hc used for
     nursing facility residents in place of the 10 ;J 20-year-old drug thcrapres? The
     availability of these drugs, too. is an important factor in delivering qua/icy of care.

      Conducting drug regimen reviews on a routme basis and/or conducting reyicws for
     the OIG’s research without physically being present in the nursing facihty or seeing
     residents produces questionable results. This practice may explain some of the
     pharmacists’ concerns about prescription drug use in nursing facilities. If the
     consultant pharmacist is actually in the facility, the likelihood is increased that needed
     information will be obtained with the help of facility staff. Therefore, wc recommend
     that further research be conducted before any conclusions are reached regarding the
     survey of pharmacists.

     We recommend that the final reports note that many of the concerns such as proper
     monitoring and physician prescribing practices for the elderly which are identified in
     these drafts III-Znot limited to elderly individuals in nursing facilities. They also relale
     to those who are at home and in hospitals.

     We recommend that health professionals and the public continue to be educated
     about, and further research be conducted on, the use of drugs and the elderly. In
     addition, it is imporknt that consultant pharmacists clinical orientation be increased,
     especially through training in geriatric pharmacology.

     We recommend removal of the recommendations that require pharmacy review notes
     be placed in a particular location in the facility and to promote that a common drug
     category list be used during drug regimen reviews and medication pass reviews.
     Facilities need flexibility to file their pharmacy review notes where they can best be
     utilized by the individual facility staff. A common drug category list is not
     compatible with the growing younger populations in the nation’s nursing facilities, in
     particular with the advent of subacute care.

 We would be pleased to discuss these recommendations        further if needed.




 Sincerely,




-Janet A. Myder,
 Director of Regulatory Systems

 a\rcg\Jml\canmentrbipe3b
                        doe
 cc:few HealthCareAssociation




                                                 5




                                             E - 14
October 14. 1997



The Honorable June Gibbs Brown
Office of the Inspector General
330 Independence Avenue
Washington, DC 2020 I

Dear Ms. Brown:

Thank you very much for this opportunity to comment on the droftreports on
prescription drug use in nursing homes: “Prescription Drug Use in Nursing
Facilities: An Introduction Based on Texas, OEI - 06-964X0X”;   “An Inside View by
Consultant Pharmacists, OEf -06-964081”; and “A Pharmaceutical Review of
Selected Texas Patients, OEI -06-96-OKX32”. This letter includes our general
comments on the reports and we have attached speciRc and technical
comments, also.

AAHSA represents not-for-profit organizations dedicated to providing high­
quatity health care, housing and services to the nation’s elderly. Our
membership consists of over 5,ooOnot-for-profit nursing homes, continuing care
retirement communities, senior housing facilities, assisted living and community-
based service organizations. With our broad range of facilities and services.
AAHSA serves more than one million older persons daily. We have a long history
and consequently, significant experience in meeting the needs of the elderly.
We recognize the important role that the Medicare and Medicaid programs
have played in ensuring that the health care needs of older Americans are
adequately met.

AAHSA nursing facifity members are committed to providing quality health care
to all their residents. Prescription drugs are an important element in the medical
care of residents and the findings of the OIG studies are of great interest. Some
of the findings and recommendations of the reports indicate the need for
further studies and could be helpful in improving the quality of medical care
given residents in nursing facilities. However, we are concerned with some of
the methodologies used in the study, the limited nature of the findings and the
recommendations for new program reauirements that are&justified           by the
studies.




                                    E-
The Honorable June Gibbs Brown 

October 14, 1997 

Page 2 





AAHSA agrees that there is room for greater understanding of the medical 

needs of the elderly, particularly those with chronic conditions and multiple 

 problems, and the “appropriate” use of pharmaceutical resources available to 

help them. We al50 reCoCJniZ5     the potential benefits that more geriatric 

education of physicians, pharmacists, nursing staff, residents and their famiiies 

could have on patient outcomes. However, there is a great reluctance to 

endorse more federal regulations or requirements for nursing facilities, one of the 

most over-regulated industries in the country. Once srxcific problems and 

solutions can be identified. targeted education and voluntary compliance 

might be the most cost effective approach. 


 Better communications among the physicians, patients, consultant pharmacists, 

and nursing facilities’ staffs could eliminate some of the problems highlighted 

by the reports. In particular. it makes sense for the medical diiector to be aware 

of any problems identiCed by a consultant pharmacist’s monthly review. But it is 

also important to recognize that each of the caregiving parties has a specific 

role to play dictated, in part, by state professional licensure and relationships 

with and responsibilities to the patient. Increased requirements for selected 

providers and the nursing facility, the place where the parties interact, may not 

be the mosf appropriafe focus. Greater understanding by and communication 

among gJ portiis should be the goal. 


The analysis of TX Medicaid claims for prescription drugs (0EI-W96m) 

Indicates problems because of rlslng program costs, but the data needs to be 

interpreted in a broader context, including payment methodologies. increased 

use of certain more expensive drugs, such as those that treat cardiovascular 

disease or depression, may very well represent better patient diagnosis and 

care. rather than prescription misuse. OBRA ‘87 has mandated the provision of 

NF care to bring the patient to the “highest practicable physical, mental. and 

psycho-social well-being” and that sometimes requires expensive drug 

treatments. In addition, prescribing drugs for elderly patients is a complex 

process unique to each case. One can not            that     the      associated 

      the    listed      are              or            dangerous      uninfofmed
           In        the         of certain     of        as                     or
                    may    misleading           unique                  can
their      Nonetheless,    is        to       the      of         drugs       time




                                     E-   16
The Honorable June GiDbs Brown 

October 14, 1997 

Page 3 




and it is encouraging to see a 20% drop in such use over the course of the study 

period. 


 AAHSA agrees with the recommendation that HCFA contkue to monitor and 

 encourage reduction of the use of certain drugs, though changes in the 

prospective drug utilization review programs are not thoroughly analyzed and 

justified. AAHSA OISOagrees that HCFA should focus attention and further study 

on the five categories raisins costs and medical concerns in the NF. The lost 

recommendation, for further study of factors (which should include patient 

acuity measures) affecting the wide differences among nursing facilities in the 

costs of pfestiption drugs used by residents is partiiulariy important as a basis 

for understanding fhe situation and designing possible changes to ameliorate 

perceived problems. 


The report on consultant pharmacists’ views (OEMX-96-KQ81 )is impossible to 

interpret because of the constraints of the methodology and lack of a detailed 

explanation of it. The selected consultant pharmacists were asked to recall 

experiences in a particular facility over a 6 month period, without records and 

data reflecting all relevant actiiities and without guidance on how to define 

the frequency of remembered occunences. It is an impressionistic opinion poll 

of views from one set of players in a complex process with legally defined roles 

and responsibilities, diierent perspectives, and debatable interpretations. 

Nonetheless, some of the problems indicated by the consultant pharmacists 

deserve closer examination, pariiiularty those indicating communications 

problems-inadequate        records documentation, lack of referral to the records 

when conducting drug reviews, lack of reporting of monthly reviews to the 

medical director, etc. To better understand the nature and extent of these 

problems and possible solutions, all parties should be involved in study design, 

analysis, and recommendations, including the medical directors nursing staff. 


The third report (O&06-9&00082),   based on contract pharmacists’ reviews of 

medical records in a small. nonrandom sample of cases, highlights other 

potential problems that warrant further examination before major program 

changes are suggested For national implementation. Therefore, AAHSA supports 

its recommendations that HCFA monitor and enkourage reduction of certain 

prescription medications and identify and analyze reasons for rapidly increasing 

costs of certain drugs. We also support the third recommendation to strengthen 

the effectiveness of the medication reviews through guidance to involved 





                                      E - 17
  The Honorable June Gibbs Brown 

  October 1A, 1997 

  ?age 4 




 parties. Additional changes and new reauirements on a national level are not 

 justified, given the limited information In these TIX studies. We agree with the 

 neea for more education and training for all involved parties, including 

 prescribing physicians and nursing staffs concerning “appropriate” drug use for 

 the elderly, but it is uncleor how that might best be provided, where, by whom. 

 and payment method. The last recommendation concerning the placement of 

 all patient care records in one location within the nursing facility is premature 

 and unJustlfled. since the opinion poll shows 89% of consultant pharmacists have 

 no difkulty obtaining a patient’s assessment and 97% report no problem 

 getting the patient’s plan of care. 


 Our specific comments and recommendations are attached. AAHSA 

 appreciates this opportunity to comment on these draft reports and would be 

 happy to continue the dialog OSthe issues are explored further within your office 

 and HCFA and solutions are developed. 





Z,&v
 President

 Enclosure




                                      E- 18
AAHSA                     /
October           1997
Page I




    Detailed Comments of the                     Association    Homes             jervices       the
                                          on            Reports
                              Prescription       Use   Nursing



An                     Based        Texas,

.          20%              in             drug               per                is            rapid
            troubling,       noi              New           have              available         the
           for         of      common               of       elderly,       genetic
      are       yet              and        often         a                  higher           tag.
         some           the         drugs           a          health                with
      side            Some       the          costs       also     attributed        better
                   care        patient                Also                 to       rapid
                 in              is     rapid           of                drug            relative
      the               Price          and      other             components          it.

� 	   Because the study only looks at one state and does not appear to examine
      the Medicaid payment methodologies fur prescription drugs, it is impossible
      to determine how much of that increase might be due to administrative rules
      and procedures under the control of the state’s Medicaid program.

. 	 The study found that 17% of the state’s prescription drug payments were for
      the dually-ellglble paputattan in nursing facilities (NFs). The dually-eligible
      population tends to have greater medical care needs than the average
      Medicaid or Medicare patient. Without further analysis of the study
      population selected compared to the dualiy eligible population in the
      community and to other segments of the TX Medicaid population and
      compared to similar populations in other states, it is impossible to assess
      whether that proportion may be “out- of-line”. Patient acuity measures
      would be crucial for any such analysis.

� 	   The finding that some NF r&dents rece’ke inappropriate cf unnecessary
      drugs is of grave concern. Given the high number of prescriptions per
      patient, that risk becomes more dangerous. We are well aware of the
      health hazards and costs associated with such treatments, partk~~l~~ty for the
      elderty. Because the elderly, espe&Aty those poor and in nursing homes,
      tend to have multiple health problems, the prescription problems may seem
      more extreme. But problems of drug use are ndther unkque to the elderly




                                               E-   19
 AAHSA                   /
 October 14, 1997
 Page 2



      nor to nursing   home residents.     This study has focused   on a narow    segment
      of the population, but the problem is much more widesixecd. Sea the
      enclosed cartoon for a commentary on OVI drug-criented socieb.

�     There are, however, some prescripticn problems related particularly to the
      oge of NF potients.    The elderly   body does not process     drugs as efficiently   OS
       it did when it was younger and it is more sensitive to the effects of many
       drugs. For those reasons, among others, there are certainly some drugs and
       some treatment regimens that should generally not be recommended for
       elderly patients. However, it is important to be cautious about labeling any
       list of such drugs as “inappropriate” of “contraindicated”. Those terms have
      specific medical meaning. Appropriate use of a drug can be a debatable
      matter of judgment. The list of 20 drugs used in the study was constructed by
      a small group of experts using Delphi methods and was controversial at the
      time it was published. But rnme importantly, it must be recognized that, for
      some cases. it could be appropriate and necessary to use one of the drugs
      on the list. Based on a physician’s clinical knowledge of a particular patient,
      the doctor could knowingly choose one of the proscribed drugs as the best
      option in the given circumstances. (Such use could appopriately trigger a
      discussion or comment from the consultant pharmacist during the monthly
      review, to determIne whether or not it were, in fact, an “appropriate” use.)

� 	   Despite the concerns expressed above about the drug list and how it is
      labeled, we are encouraged by the reduced percentage of beneficiaries
      receiving drugs from the list over the time petiod of the study. While the
      study notes that the percentage “shifted downward slightly” from 1992 to
      the first half of 1995, it is actualty a MX reduction in the rate. In part, that
      may reflect Ihe growing impact of OBRA ‘87. In part, it may reflect the time
      lag frequently noted far scientific literature to have an impact on daih/
      medical practice.

� 	   The study shows a need for more education about drug use for the elderly
      that includes physicians, their patients and ail caregivers, regardless of
      setting. Particular attention could be targeted on the five drug categories
      that represent rapidly growing costs to the TX Medicaid program and. within
      those categories, focus should be on drugs p&enting the greatest risks to
      elderly patients. The costs of such education and who pays them need to
      be considered in any policy recommendations.




                                            E - 20
 AAHSA Comments / Recommendations 

 October 14. 1997 

 Page 3 




 � 	   On page i!, some of the findings about the .5drug categoties and
       gastrointestinal ������������� make comparisons to “all Medicaid prescn’ptior­
       drug paymenk” and it is unclear whether that refers to just the payments fcr
       the study population or the total ,Medica!d program.

 . 	 The finding that gastrointestinal drugs average nearly $38.5 annually per
     beneficiary would mean $1.05 per day not $1 SO.

� 	    The finding that average presctiption drug payments per beneficiary varied
       so widely among NFs may reflect, in part, the vafiotions In practice patterns
       that are found throughout medical practice. However, it calls foefurther
       analysis that takes into account average case mix or patient acuity, special
       characteristics of NFs that may be relevant, as well as an examination of the
       distribution of those costs and a closer look at the outlien.

� 	    Table 6 and the discussion above it on p.9 are a bit confusing. If the facility
       with the lowest total drug payment averaged $0.17 per (patient?) day and
       had at least 6 beneficiaries during 1994, the patients must have had very
       short stays if the ����� facility payment was less than $10.00. (The bottom row
       of the table multiplied by 365 does not equal the top row.) Perhaps more
       extreme cases need to be excluded or slightly different comparisons are
       necessary to be dear and meaningful.

� 	    AAHSA agrees with the recommendations in bold type on p. 10. However,
       AAHSA has reservations about the inclusion of NF residents in the automated
       prospective drug utiliiation review programs already in place, without some
       evidence that those programs are operating smoothly in each state, reviews
       are timely and cost effective and that they have the capacjty and expertise
       to handle the nursing facility population. There is no diius-sion of this
       utliiiation review program in the reports and no justiiation    to support the
       recommendation.      AAHSA supports the recommendation for further study,
       but does not believe that the survey of consultant pharmacists provides
       useful insights.



An Inside View bv Consultant       Pharmoc*ists. OEI-O6-9&00081

� 	    The methodology of this survey and its written repart are basically flawed
       and would b-emisleading if published. The data represents personal opinions
       o? consultant pharmacists rather than accurate reports of activities within




                                          E - 21
AAHSA Comments / Recommendations 

cktober 14. I997 

Page 4 




  nursing fccilities. It does not present a realistic picture on which to base
  policy considerations.

        1. While the selection of pharmacists may have been random, it is not
             likely that the pharmacist’s selection of a facility on which to base
             responses could have been random in any statistical sense. As
             noted on page 7, you can generalize the findings, “Assuming that
             the pharmacists did in fact randomly select the facility for which
             they provided information...“. Without seeing the survey instructions
            and questionnaire, there is absolutely no basis for making that ,,
            crucial assumption and putting any faith in the findings,
       2. 	 Even if the study could document a totally random selection of NFs
            by consultant pharmacists, the fact that their responses are based
            solely on personal recall of activities over a 6 month period with no
            documents or records for reference to improve the accuracy of
            their responses and no advance warning at the beginning of the 6
            month period, means that the responses are merety impressionistic.
            not accurate reports of actual actiities.
       3. 	 Many of the responses reflect the frequency of a particular action
            (“of-ten, sometimes rarely, never,” or “none, few, some, most, all”),
            but there are no definitions in the write-up or the tables in the back
            explaining in numerical term what those words mean. Does that
            mean that there were no definitions given the respondents. either?
            That makes the response even more impressionistic and less useful
            for defining any realtty. What is a rare occurrence to one
            pharmacist may be considered a “sometimes” event by another, or
            both may be weighing their answer based on the number of
            consultant revFews they conducted (or remembered) during the
            tlme period or by the number of dually eligible involved.
       4. 	 Because the study represents only one perspective on the
              situation, it may identify problems and solutions that would be of
              dubious merit. For example, same of the consultant pharmacists
              cite lack of drug monitoring through lab tests. However, this issue is
              open to dispute. Some physicians feel that clinical and physiologic
              indicators are more useful. incur less pain and cost for the patient
              and that lab tests are necessary when there is a change in the
              patient’s condition or treatment plan. rather than on a se?
              calendar schedule. Regardless of the merits of the case on either
              side, the ‘dentification of polii problems and solutions would be
              enhanced by such a debate among al involved parties.




                                     E - 22
AAHSA Comments / Recommendations 

October 14. 1997 

Page 5 





. 	 Given the above criticisms of the study, it is hardly necessary tc comment on
    tne substance of the report. Nevertheless. It is lmootiant to Dolnt out some of
    the hazards with the current write-up of the report.

          1. 	 P.8: Such general statements as, “Pharmacists believe that
               nursing home patients are experiencing numerous adverse
               medication reactions as a result of inadequate monitoring of
               medications...” are dangerous because they reflect penonal
              opinion only, do not state what percent of pharmacists actually
              believe that. whether they think that statement applies to 100% of
              NF patients or some lesser amount, and draw conclusions about
              relationships that are not supported by data. A pharmacist would
              likely see cases of urinary incontinence, depression, delirium, falls
              and constlpaiiin among nursing facility residents as she would
              among a comparably aged population living in the community.
              These conditions occur relatively frequently in the elderly,
              regardless of drug regimen. There are many contributing facton.
              This particular study provides no basis for concluding a cause and
              effect relationship with drug prescribing and monitoring as the sole
              (or major) causaiive factor.
         2. 	 P.8: The percentages following the 8 problem statements reflect
              the percentage of pharmacists that thJ& the problem occurs
              sometimes or often, not the frequency of cases where the problem
              actualfy occurs, but that is not clear in the Wteup.
         3. 	 Throughout this report there are statements typed in bold, “...the
              consultant pharmacists express concern....“, “....are also problems
              according to consultant pharmacists”, “Pharmacists have serious
              concerns about...“. but it Is unclear what percentage of
              respondents reported a problem or how frequently they observed
              a problem. Citing the specific questions asked and the
              percentages of responses might help clarify these points. Far some
              issues, it might be reasonable to expect that each and every
              pharmacist that observed even one Event X ought to be
              concerned, but otherevents/issues might not be that critical.

. 	 Because AAHSA concludes that thii survey has no value beyond vague
    impressions and opinions, we do support further, data-based study of some of
    fhe issues discussed because they do raise questions about quality of care
    and the need for better communications among involved parties. Also. the




                                      E - 23
 AAHSA Commenrs / Recommendations 

 October 14. 1997 

 Page 6 




    study ought to reflect the roles apd activities of the various parties involved ir:
    the caring process as well as those of the consultant pharmacists, since there
    are legally defined roles, responsibilities and relationships that are involved
    and must be considered to get a full perspective of the situailon.
. 	 AAHSA does not believe this survey provides an accurate basis for
    consideration of policy changes or new regulatory requirements.



A Pharmaceutical       Review of Selected Texas Patients, OEI-06-OQWQ

� 	   This report does not explain how the sample of 254 nursing home patients
      was selected for a desk review of their pharmaceutical regimen, and the
      report states that, “We do not generalize the contract pharmacists’ findings
      to encompass all Texas nursing home patients, choosing instead to present
      the findings only in relation to the 254 patients reviewed.” AAHSA agrees that
      the findings apply only to the sample of 25.4 residents and questions why the
      OIG then uses this study as the basis for making policy recommendations for
      regulatory and programmatic changes on a national basis for an assumed
      national problem. There would be significant costs nationally associated with
      some of the recommendations, but the costs could hardly be justified by
      problems identiied in a nonrepresentative sample of 254 TX patients.

� 	   This repoft is valuable, however, because it includes some of the cautionary
      language and qualifications necessary, but lacking in the previous two
      reports. These subtle distinctions are cruc*~ll because they highlight the
      uncertainties of practicing medicine and prescribing drugs for the elderly
      and the need for direct clinical involvement and medical judgments on a
      case-by-case basis in order to provide the most appropriate care for each
      patient. For example,
          1. P.8 “As with any medication, one should be aware that some medical
          situotiins might warant the use of these [Iii of 20 drugs geneKllly
          considered inappropriate for elder!y patients by a panel of experts]
          drugs.”

         2. P.8 “...contract pharmacists identified patients taking medications
         potentiallv contraindicated.......” [Emphasis added.]

         3. P.9 “...the need to balance what could be inappropriate medications
         against the benefits of relieving or treating diieoses which warrant such




                                         E - 24
hAiiSA     Comments         / Recommendations 

October        14, 1997 

Page     7




         usage      For ?he enhancement           or maintenance       of an individual’s   q~rolity of
         Ilfe.”
         4. P.9 “-records           indicated   other adverse     effects   possibly   caused   by
         medications.”       [Emphasis       added.]

.	   Despite      the limitations     of this study,   it does raise concerns     and potential
     problems    about the consultant pharmacists’ reviews and their relationship
     with the full patient care iearn. including physicians, nurses and aides.
     AAHSA suppork the essence of the firxt recommendations on p. 13. with
     emphasis on further study, education and approaches to encourage better
     communications and better practices within the NF, rather than the
     imposition of new requirements. Regarding recommendation #5, there is
     insufficient data to support the need to maintain all patient care records in
     one spot in the NF. The opinion poll shows 89% of consultant    pharmacists
     have no difficulty obtaining a patient’s assessment and 97% report no
     problem getting the patient’s plan of care.

     1. Any further discussion of the issue should include a multi-disciplinary team
     of all care givers having any role in using the records in order to balance all
     needs appropriately.

      2. These studies provide no justification for imposing new, national
     regulations- the nature of the problems are not thoroughly understood. all
     part&s involved in the NF should be involved in the analytical process, and
     the costs and benefk of alternative policy options have not been analyzed.




                                                       E - 25
E - 26 

an increased use in ardiac ad cardio=nculardmgs        as well. ~+~&on      i3 also mope aggnxsively 

identified, diagnosed, and @cated in the musing home ting        The cower and S&X entidcp-ts 

are clwrly aIs0 much mm expcnsiw. Wi mgad b itions,                 more patkots ae t2anrfkvd f?om 

acutm hoepitai stays into the long term setting who rquire atibiotios, cad, additionally, residcntr may 

bcmo~~~bctnrtedfori~eestioabin~cl~PrrmseetingnthuQnk~sfenodtothc.wu(c 

hospital setting wha al immuncnt infbajon slim. 





                                                E - 27
~DDl’TlONAL COMMENTS OF ‘lXL%MEnIC~   MEDJQ$L DIRJXfORS
&%OCIATION ON OK -m        ON FRESBRTON   DRUG USEM
mm

October6,1997

       4 - u
OIC RQQolf        cri tie           D
37
htrodu ‘on il8saI 0


AS noted in Dr. L.awtrOrm’scover later, AMDA is extremely wttaxned about
inappropriatewe ofprcscxiption drugsthat result in poor patientoutcomes and
hospirstintian. Ad an ofgattitatioa, wt enck8wr to f&c the 6tadard of practice in long-
tam cam settingl by eduation prognnrs tlut are devutedto rippru+ate w use, as well
as xrticla in ourjournul,&&&%xnc Modkine.nK_Anlulo~Tsrm                     C!ML Ws
also provkie instru&n on mtc           drugUK in our m         to c&ify long-term cart
mcdiiol dii~.      In addition, ni&y of’our40 state chptere kvc provided eduatiorul
pgt3m on appropriatedrug ust in the elderly. We arc well aware ofthc unktunate
outmmci that may result barn tbc use of drugs that are inappropri8tcor not mediclily
nccwMq.

Wt a~, tier,       mindfid that the cornerstoneof nursingfiwility mform is individualized
are plmnin(l ad tmdmeut ofacb individual ruidcnt While drug guiddinea are very
useful. in individual circumstancesphysicians may prwxibe drugregimens that vary
6om the guidelines but are, in N, the optimal drugtbaapy fw that indkidual patient.
You may wish to ‘mdudc in yuur diissian of OBRA the fact that the Resident
h~SSft5~t InsbumMt/Midtnum D8ta set (RAI/MDS) tqWWats OBRA ‘87’s focus on
e~sufhtg that every toting facility rwidcnt’s individualneeds are met. Futthamon,
0BR.A ‘87 requiresthat mu&g facilities provide servicerto ensurethat acb resident
�chicva bir or bu “highest pradiable phyaioal, mental, snd psyohosocial wdf-being.”
Tht mquirtmaIts br iodivldlmlii cart plans as well as cue and savicu to achim the
raidcnt’s highest pmctiab!t well being may all k&a&e the cowse of drug thwapy in
wliystwsnaydeviwehrIlr%mltkama”rpgroach.




                                            E - 28
Residents.” Archives ojInremlMedicine,       Vol. 151 (Sepr ;;;I), pp. 1825-32 It should
be noted that although the drugs listed in Appendix A include many that most
goriatrickns would avoid in tmxtiag elderly patients, then was some contmvemy in the
medical community about the a&k, particularly about the Delphi method used in
rraching its conclusions. A review of wmmenta and Iettm to the editor following
publications of the articlecould provide some context for the contmversy. The list of
inappropriatemedications in nursingfacilities should be made with a broaderumsensus
and revisited paiodically.

Findiaru:
� 	 LOtcthe OIG, AhIDA is ctmcarnedthat prescriptiondrug payments for dually

    eligible Texas nursing home rcsidantshave increasedrapidly, rising by 20 percent
    from 1992 to 1994. 7he data fktn Texas is consistent with rqwtts &om managed
    m c~niplni~ ho&a& and patienta. The cost of drugs has clearly risen rapidly,
    Pndm~ynew,vny~edrugrhPveoamtonthtmsrhIntheputfourtotivc
    ytam Conmrttntly, with the dwtd emphasis and attentionon providing the highest
    pncticable &n&onal IevcIand quality of Ii&,the typical nursing facility taidcnt is
    ndving much ma         medical attention and msbnart th8ninlJlcpt”

� 	   Regarding increased drugusa, M noted in Dr. L&mme’s l&a. it is nut unexpected
      that an inctuae in the use of cardiacand ca&ovasadu       drugs would occur in the
      nursing hcllity setting Thereir nowgoodevidence that more qgrcwive tmaiment
      of amgutive heart failure(CHF) anhtnces @ii         of life and deaesw tpitodts of 

      acute aacebuion of congesriw haastMurc, therebydeacasing cpiaodca of 

      hospitalization. A comstont ofCHF is ACE inhibiin, rquiring a relatively 

      upcnsive class of hugs. In tdditlon the canplicrrioM nswciatcd with isolated 

      systolic hypertansid in tba ddcdy may bo rcducul by more ag@%siYt(rertmeat of 

      tltvatd praaams, the&y accwnting for m imxaascd UK in cardiac and 

      cardiovasashu drugs as well. Dapression.is aiao being more aggnkvcly identified. 

      diagno4,andtr~adinthamxai~homeMtin&tk~and&k 

      antidcprrJ#atr UC clcatiy much more qensive. W& regardto infkctio~ morn 

      patients who M -              &canuuta bmpitti ttayr into the long-tam cart terrings 

      rquke8M+Xkd.         Add&nally,reskk&maynowbemoreapttobCtPat0dfo~ 

      infbai~~~~~~cm~cbma,betrrpidimdtothc~cbolpitll 

      MtiOgWhUlint-                 i&c&m date.      Pltrthermare,in tight ofOBRA ‘87’s
      rquiremm to ptwkk etavices to achicw the resident’shighest pmctkable well­
      kin&physiciMHouldhve~diftlcultyinlimiting~gtknpi~t
      ultiinftctives. ardiac linlgi$ 8od 8tltacpalus    ifthey an lncdidly qpfqb.
      ‘Iheaarhstrmrll~ddnrg~~forM~ingmqjoriCyof
      pfwdptb~ittitoousinmoattratdtduitmtdicint,nfl~~ww
      tkrapiet. high demand, end high prtdanw of gstroinbcrtinJ. tiiovssFul~.        ai
      pychiatric problasnain tk nufsing fMlhy poplhdon.




                                               E - 29
                                                                                                      3


         “inappropriateness” is subject to considerable &erp~tation.       See comments above
         regarding the lead article apparently relied upon to detmine      appropriateness

  � 	    &garding drug costs, we note with intere.st Table 5, which reflects the percent
         change in tots1 Ixnefkian‘e~ receiving prescription drugs and total payment for five
         drug dassifications. Clearly there is a vast discmpnncy when the percent of
         btneficiaries rccciving gamointestimd prepamtio~ haS inaeased 1S.J%, while the
         CoSt ha9 f&n 93.5%; or witen the percent ofreSidentS receiving psychotherapeutic
         dfuga has incrcascd nearly 1OTTbut the coat has inwed         nearly 92% The other
         categories ofdrugs show similar, although slightfy ksa chmric,        trends. This vaat
        incmae in drug payments raise, ~hc question of what stab may be doing to amVol
        the cox of there drugs.

 � 	    The draft report ootes that total prescxiption drug payments, average paymsntr per
        day, and average payments per beneficiary vary widely by Texas nursing hility
        AhIDA canam with 010 on the Mcd to fiuther analyze variables such aa size of
        facSty, Qoility type, severity of illness, types and mmbsre of ocher actvices. We
        recommend epecific focus on patient aarity. which we believs has incrased in recent
        years. We note that varinttonr have been observed in medical treatments, procedures.
        end prescribing throughout many EMS of he&h care services, e.g., TVRPs and
        hystertctomies. Ongoing efforts to u&rat&d and address thiq variability are highly
        desirable.

 RoMQjm&#&&
- AMDAcrgrceewiththe               rewmatanjation that HCFA should wntinuc to monitor and
        tneotnage   rcductiw   in the us0 of inapprc#ats ot poorly &+ctive prescription drugs 

        in the eldaly population      We also agree that at the facilii kvcl, survey~n, 

        consultant pharmaoi~ts, and physicians should be reminded of the d-s           associated 

        with such drugs and dirccted to aaively ve          a rtduetion in their use. We also 

        amcut that eimilar anaIyais of data 6um additional states shouhi be undertaken to
        furthe assess the extant oft&. contimted use ofthese contraindicated drugs. We do,
        however, we ravotmtnd that a fwma definition of 07G use of the terms
        QmtnindicataY       er(d ‘incff&ivt” be adopted, in orda to fbcilitate uniform rcvicw.
        It is important to note that inappropriate and oontraindiuted art not rrynonymv~~
        turns in medicine. We dsu suggest that the list of inrpprophtt drugs should be
        stratifled with emphasis on drugs that IUCthe most likely “offendeN and have
        rtuonablc olternadvt tmrmm.          We temtnmtnd mllrbontion behwen HCFA and
        pro&a&ma1 organizationa to publish informatios whisb AMDA codd publish and
        disseminate.

� 	     ���   significant increase iadmgcostsisofunivcrwlintecewfbrpati~~
        physicians; it should be reviewed as an &pervasive iwe, not as peculiar to n~rrin8
        facitititi. Consiiaation of chug we and coats in mxsiug facilities done porcr the
        danger of enating an inf&,pturdird       ofprescribing fbr nursit@ hcifi patients. We
        do qpreci~e the 01%‘~ oollcern &r inudng          Me&aid costs, but UI appropriate
        appmaeh may be fm tba Mediaid        -to        fmur the diqnv@iMute        increaSe in




                                                   E - 30 

                                                                                               4



       their cotis beyond what is explainedby increased use. increase in beneficiary use
       would szem IO warrant. We do not believe it is necesauy tu single out certainrypcs of
       drugs for review as to medical rIecesrity. It is AMDA’6 position that all mcdicationz
       ordered should be medically necessary.

 � 	   We agree with the OIG that iiutha study should examine data about resident
       conditions (pwticulsrIy severity of illness. IISnoted above), types of specialized are
       and o&ex facility-specific   chnnderitics,    along with drug usage end expendituredata,
       to better undentmd    the factors contributii   M wriationr between nursing fkeilities in
       the costs of prcwiptian drugs by rcridents. We rlso suggest analysis of resident
       essessments to pin fxtter unda-stsnding of the individual f&ton that may influence
       mediation choicq CIHI      analysis ofwiwthti, in the case ofquestionable mediation
       regimens, othermoir traditionalregimens had been prcscn’bcdand then diaarded as
       not efTdw in a pticuhu patient.


Qpnaents         on OIG Reuort - “PrescdpQiOPPLYP Use M




Omnibus I3UdgetRccaaciiiation Ad of 1987; This section should include (Ldiscussion of
OBR4 37’s fodts on individualized assessmans and cwz plan requirements,as well as
its rquitwnents to meet the nsident’t highest pm&able well-being, as disatssed above,
due to the possible impact those rqukements may have on drugtherapy.

Oronibw Budget ReconcilictiofiAct of 199@T?u summuy in the OK reportdoes not
mention that the OBRA ‘90 8mendmentr8pociFythat the phmnrCiStmust offa to
cotJm?elpatklrt QrtheiraradYa% (eqhllsis ad&d) on dimctiornand pwautions fbr
Prcpupias~-~-;                     eommenadme&dsmdthecrpeutic
compliations, properstonge, ete We amme that for mrning facility patient+
“~~3’        would efkr to the Rining &of the nwsing facility.

physicians Dutermiaekhnt is Approprirrtc   fir
 Ex41 Petkt: AMDA is plused to see
010 mccgnition otthe fist thatit is the patlent’sattatding physician or the facilit$s 

medial dllor do dotumirie ti         is appropriatecue, including prewiiing 

mediations to meet paiems’ needs. 





                                                 E-31
                                                                                           J



When con&ant pharmtins have decided to i&rm the medics1direaor of
irregularities,medical directorshave not found problemswith the Brmat in which such
repmts arc made We feel that it would be burdensomefor physicians to be requiredto
include with their ordersa medical outcome equtation for each prescribed medication
For most drups. the expectationsJhould be quite clear fromthe petient record. For
example, a paient with taminal cancer who is raeking a MC         analgesic patch for
pain contrvfwill p&ably need mcdic&ms for amsripation and nause.zt,common side
cfTe35 of the anal+2 regimen. Anotk common exam& is the usu8l need for
potassium supplemsntutionfbr pati- receiving loop diuretics.

Regarding notice of rccepuncc or rejectionofconuultm phannacist’t concems, WI:
expect that would be addressedin the notes from the next regularphysician’s visit to the
patient. Careshould be taken not to create an additionalpaperworkburden for medieal
and ntthng st&Tin respondingco those con-6

&&I&&
Qudity ofcarehua:
�  ��  noted in the report,the pclwrlenec of signs and symptoms of various diseasea and

   gdtric uypdtomw present in this pop&ion are easily confused with adverse dnzg
   redCti0mt.It ropuircrthe diqn08ir 8ndj&ma6 cf 8 physician to di&nntiate 8
   cause and dfca dationship utd advise I patient on the risk/bcacf~ of any treatment.
   This entire subject should not be addnaeed without physician input.

�    Apppropriuause and monitoringof medication in a nursing facility population is and
     aluayswillbeimportmt8dditRcuk        lkbestproce36forthisicacyet
     undiscovered. A combiacd e&t amongthe interdisciplinarytwm, including the
     physician and medical dir&or, scans ideal. This, howwer, rcquireearpanded roles
     and finding far this wurk,




                                              E - 32
                                                                                            6


       less likely to create a need for inves”:atif$ possible abnormallab results, which may
       be very expensive and wonisome and yet produce no real benefit to the patient.

 Shortcombs of &&atiQn8evicws:
 �  ��  note that thatwell-unX~edand’organizedmedical recordsoverlapbetween sites of

    service and present a majorchallenge in every a~ of health care.

� 	    Regardhg the OK’s findinga that residentmedication recordsare often incomplete,
      making it difficult or impossible to dearly ideMy or co&inn potential drug regimen
      problems, AMDA obaer~ thatthis is a 00mple.xproblem. Many patient8have
      problems thu evade precise diagnosir and me problemsthat fit into many
      ategoriea, and those tdtdd be noted in the progr~ notw. In nuny other aspects.
      the 010 finding@r-sent     a systems problem that is beyond the control of either
      medical direc&xsor attendingphysicians.


a 	 AMDA~thatHCFA&uldcaainuetomonitorand                     F)IEOW(B~   reduction in rho
    use of codmindiated presa+m hs          in the cldaly nursingfacility population.
    We reiteratemu requestthat the terms “amtraindiatcd” and“inappropriate”be
    defined, in orderto enrun unifizm interpretation

� 	   AMDA rgrew stronglythat HCFA should identify and analyze the reasons for rapid
      escalation in costs and claims for cdc(riatypes ofdnlgs used in nursing facilitiw.
      While the increawd use ofdltqp amo@ reSidCNsnuy be simply the re3ultOf
      incrrucd acuity of r&de* ewe mix (e.g. in the ase of4odinfectives), or
      improTentr io diagnosis and treatments(as in the ca.~ ofantideprtssants), and may
      be entiretyappmpriat~ the weaih        in drug prices aeenlad@CQOdOoO~C      to
      the iacrease in drugw,      and chuukl be fevicwsd. ltatds in nursing ticility
      prescriptiondrug UJC#ho&dbe comprrcd arithnational&a on praaibing and coats.




                                            E - 33
          +bcd,       and requiringphmacim        to tttomturL. .:.ese apcctations.” AS noted
          above, general clinical e~pcctations  will be ckar in the cue of most medications.     If
          a physician is using a drug tn treat a condition other than that for which the drug is
          normally pmcribed.    it is reasonable to expect that the physician should clarify the
          condition that the drug is expected to treat.

          AMDA sgrccrrwith the recommendationto requirenursiq facilities to provideon­
          goin& in-&cc training for personal csre aaff(CNAs) on recognizing behavioral
          JY?f@Omr    Of Cotmhldi~rIS,     EdverselemSioo6, or inappropriatetcsponscs to
          mediations. C’P& ure the fiunt-line of nutaing home carq and their &stance in
          recognizing aymptams of medication pmbkms could gra%lyenhance the qualii of
         rwkient care. Fimt, howaver, there should incrwad fund+ for rtlffrnd continuing
         educltioa dfbrts to enhanoaiqtaaaions betw~~ the physicians, pharmacists.and
         facility StafE tt would not be prudentto trainnurseaides to look for medication side
         ~saschrtPehardtodisMlradi~evar.fortnincdpfryridansmd
                    .
         phamlaa&without ifd             pmasa andstntc&e to ~WUCthat physicians and
         pharm8cistsueaiready wnuhuade             among tkriudvw about these issues. To
         train nrrx &a withuut hn(:easuriag that the physloian-pharmacistiii Is wrking
         � ffbctidy   would be disrupti~  to patient cate and okall oonfidence in a nursing
         ZWlity.

     w Rqaiding the recummettd&n concexning medicA records, AMDA believes that
!	     medical recordorg+mtion and availabili should be drivenby patient care needs
       and net convenience. Moatmending phyddana have faced exactly the same issue:
       ready awus to the entiremalical rexxm%However, we rsagnk that goad and
       acceaaible patient care is at rtake This pbblems wuuld need to be addressedby a
       collaborative efftxt ofmmdng futility tia medical directors,artendingphysicians.
       andph8tmaciSta.
                                                                         .
     Cornmeats on OKGRwort - YPrcs&Hion w
     ~adlities: AJI Inside View bv CousultantPbrn&&”                         (CN2~&XJ81~

     h&d&~&:         This tidy qpan     to be a totaNyaubjectiw survey thu is not bnsaI on 

     ehwtnvinv or say otherevidanc~baseddmu For that tuoq           WCqwtion the weight 

     that8houldbc&8nt0thkmp0tt.          WCwommcnd that the OIG not publish this rrport 

     but rdy inrtaadon the evidenc&mxd repat hy mated           pkmaokt reviewers. The 

     fmdiad, of tbia su~dy are itttarr(ifig. but may be more rpproprirtefor a pharmacists’ 

     punulth~furraportbyaFedadrgaacy.               Pu~tbisrepottcarldcrrrtca 

     pnccdcnctbrta*a)lgroppothahhclte~onalsm~~ondre~~cntto 

     commission a reporton how they might betterMfiU their statutorynzipowibifhier. 





                                                   E - 34
                                                                                                       8

       on generalized   impressions   and not on actual data or actual chart review, it is difficult
       to respond to them   munh@blly

-	    Notwithstanding the non-factual basis of the survey, we observe that respondents
      noted a wed for geater monitoring of cwttinued nml fbr medications, and
      monitoring of potenblly toxic drugs. Any focus on increasedlaboratorymonitoting
      should be coordinatedwith PartB carrias, to ensure cwcrage of appropriatetests.

� 	    We note that a numberof con&ant pharmacist8assessed the extent of coopaalion
      6um tridents     panonal physicians as only t%ror povr. One aspee of this feeling of
      ������            appear& tv be that w~ltant pitumrci~ wefe disturbedthat some
      physicians do nvt take their cv-l      Kliourly 01 avt prvmptlyon their
      rmommendstions. Many pharmtiDtr colnpl&ed that phy$icians only or never
      seek their help rqarding appmprirtemedicuions vr properdosages. physicirns in
      long&um care settings use wnsukant phartnacb as �����������  That is, physicirns
      cdl on wnsult~nt phunucists when ph+ians want additivnal infbrmrtivnon
      medications. Mast of the time, phyaiciaaado not need such wnsultant serkes.
      Cleariy. cwpwatioq with appropriatewuwtmettdadona ftom wnsultant pharmacists
      ia imqmtmt, and the mwriug ftility medicaJdkctvr is in the best position to secure
      that tmvptdm.      AMDA’s wnvlusivn seems to bc bornevut by Table 6, which
      shorn that 7 I .4% of tmpvndents consideredthe -on            bawem the consulting
      pharmacist md medical directorto be gvod vr vay gwd. 010 should rewmmcnd
      that HCFA clvsc tbs fbedbackloop in wnNtant nursingfrelity drug tevkwo by
      ma&ting tbrt the me&ad dimctvr nvt vniy be informedof conema and
      rewmmcnduians, but tJmttk medical dinxtor vwxscc the rcvi~s by tic wnrttltant
      pharmadst Such a change would rliow the medicA dirstar (0 mort etktivsly
      monitor the medidpractke      of attendingphysicians as well as coordinate resident
      oare.

Shvttcomings of Medication Reviews:
0     Once rgain, given the anecdotal nature vfti   ~cvcy, it is diicuk   to hwe sufficient
      infvmmiivtt on whiob tv haso cutnmamx Fopuamplq 33%of -tits                  indicated
      thattJwyhnddiffiadtyinvln8iithcprtirpt’8diagnoais.           SinwtbcOIOrrport
      wmctly vbsma that in&muttivn on dinprir should be in the patknt’r rccard in at
      last Mn of three places (the MDS, the p&llt’n pemonal aaae4ameJlt,or the plan of
      are). it seems edmacly udiily that a diagmsir would not be found in at Icast one
      of thvr places. iRaf CalIsinto quesliva the validity of the rrpars 0Tat best. makes
      interpntdton vf its f&dings exucmely epecuJatiw.




                                                 E - 35
                                                                                                     9


�     Same respondents voiced “strong mwxma” about limitations on their professional
      authority to enforce OBRA provisions,          F&ral and State survey and ������������� 
      agcnci~ have been charged with enforcement rwponsibiliriss,           not consulfanl
      pharmacists.     It is cxtremaly unrezalistic for consultant pharmacist to imagine that they
      could �� should be able to mrmre a Facility’s or physicians’ adherence to OBRA
      provisions. or guarantee that the nursing staff properly administer medications
      demonstrates     a lack of comprehension     of the appropriate roles of various members of
      the intexdisciplinary     team

y
� 	   &DA      strongly endorses the Oft’s recmmendation       that medical directors should
      always be informed when pharmacists have patient me&&on            concertx.   Such notice
      to the medical diior     is not currently required by HCFA regulatiorw. ti nowf
      above, WA        bclim th81 notice to the medica! direc%or w&l improve
      complima with appropriate phatmaciats recormne&atioos.




                                              E - 36
